<html>
<title> - A REVIEW OF VA'S SPECIALLY ADAPTIVE HOUSING GRANT PROGRAMS (SAH)</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    A REVIEW OF VA'S SPECIALLY ADAPTIVE HOUSING GRANT PROGRAMS (SAH)

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      THURSDAY, SEPTEMBER 6, 2018

                               __________

                           Serial No. 115-76

                               __________

       Printed for the use of the Committee on Veterans' Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-830 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                    
                
                    
                    COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   CONOR LAMB, Pennsylvania
JODEY ARRINGTON, Texas               ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
BRIAN MAST, Florida
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BILL FLORES, Texas                       Member
JIM BANKS, Indiana                   MARK TAKANO, California
BRIAN MAST, Florida                  LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                      Thursday, September 6, 2018

                                                                   Page

A Review Of VA's Specially Adaptive Housing Grant Programs (SAH).     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     2

                               WITNESSES

Mr. Jeffrey London, Director, Loan Guaranty Service, Veterans 
  Benefits Administration, U.S. Department of Veterans Affairs...     2
    Prepared Statement...........................................    25
Brigadier General Tom Landwermeyer, USA (Ret.), President and 
  Chief Executive Officer, Homes For Our Troops, Inc.............     4
    Prepared Statement...........................................    30
Mr. Steven Henry, Associate Legislative Director, Paralyzed 
  Veterans of America............................................     5
    Prepared Statement...........................................    33
Mr. Ryan Kules, Director of Combat Stress and Recovery, Wounded 
  Warrior Project................................................     7
    Prepared Statement...........................................    35

 
    A REVIEW OF VA'S SPECIALLY ADAPTIVE HOUSING GRANT PROGRAMS (SAH)

                              ----------                              


                      Thursday, September 6, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                       Subcommittee on Economic Opportunity
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:02 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Bilirakis, Flores, 
Banks, O'Rourke, Takano, and Correa.

         OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Good afternoon, everyone. Welcome to the 
Subcommittee on Economic Opportunity. Subject of today's 
hearing is the administration of the VA Specially Adaptive 
Housing Program that provides grant funding for our severely 
service-connected disabled veterans to adapt their homes to 
make them more accessible to their needs. This small but vital 
program provides these true heroes with the ability to not only 
stay alive in their home, live independently, but live the 
greatest quality of life and dignity.
    And so I am very appreciative of the work you guys do, and 
I am a strong supporter of this program, but we want the 
program to work most effectively, and so we will cover a lot of 
ground today. But while the VA has a hand in developing the 
plans and policies for this program, the benefit is truly the 
veterans to administer as they are responsible for choosing a 
contractor and supervising the construction.
    Some of today's witnesses have raised concerns about the 
amount of paperwork and processing delays associated with this 
benefit, and we will dig into that some. While I understand 
there is a need to examine each veteran's circumstances to 
appropriately fund the adaptation that fits their needs, we 
must strive to improve the timeliness of service for all 
veterans. That is the goal.
    I also know that in some areas of the country the amount of 
the SAH grant may not go as far as it does in other parts. So I 
am interested in hearing from our witness about ways to improve 
the timeliness of decisions and appropriately increase grant 
amounts as disabilities worsen.
    I am also very interested, and I am sure my colleagues are 
as well, to hear about the VA's effort to implement the Ranking 
Member's and my bill that became Public Law 115-177, which puts 
SAH agents, and not vocational rehab counselors, in charge of 
adapting homes for veterans receiving independent living. Now 
there is about as common sense a reform as it gets, making sure 
that we have SAH agents and not counselors actually working on 
these.
    We hope, and I think the goal of the legislation was to 
expedite these improvements and modifications, and I also was 
told that we might have been able to save some taxpayer dollars 
in the process. So a win-win, but ultimately, we just want to 
get that service provided to those veterans in the most-timely 
way. Finally, I would like to recommend--not recommend, but 
commend Mr. London and his staff at the VA's home loan guaranty 
service for their dedication and willingness to work with the 
Committee.
    With that, it is my pleasure to recognize my friend and 
Ranking Member, Mr. O'Rourke for any opening comments he might 
have.

       OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Thank you, Mr. Chairman, and I, too, am 
looking forward to this panel's testimony and to the questions 
that our colleagues from both sides of the aisle ask to ensure 
that we are conducting the appropriate oversight of an 
incredibly important program, one who has a very noble mission 
but one which does need to have the accountability to ensure 
that it is delivering the service to every eligible veteran. So 
looking forward to hearing what you all have to say and working 
with our colleagues to improve this program going forward.
    With that, Mr. Chairman, I yield back.
    Mr. Arrington. Thank you, Mr. O'Rourke.
    On our first and only panel, we welcome back Mr. London, 
director of VA's Home Loan Guaranty Service; Brigadier General 
Tom Landwermeyer, president and CEO of Homes For Our Troops; 
Mr. Steven Henry, associate legislative director of Paralyzed 
Veterans of America; and Mr. Ryan Kules, director of combat 
stress and recovery of the Wounded Warrior Project. So, thank 
you, guys, for all being here today, and let's get this started 
with Mr. London.
    I yield 5 minutes to you, sir.

                  STATEMENT OF JEFFREY LONDON

    Mr. London. Good afternoon, Chairman Arrington, Ranking 
Member O'Rourke, and other Members of the Subcommittee. Thank 
you for the opportunity to appear before you today to discuss 
the Department of Veterans Affairs Specially Adapted Housing 
Grant Program.
    June of this year marked the 70th anniversary of the SAH 
program. Since 1948, the program has provided over 37,000 
grants totaling almost $1.3 billion to veterans with severe 
disabilities. VA recognizes that the process of delivering SAH 
benefits to veterans in a timely manner requires innovation, 
expertise, and the ability to continuously improve. I am 
honored to come to work every day to advocate for and deliver 
services to our veterans who have earned them at great 
sacrifice.
    The original SAH program has been expanded and modified 
into the program we administer today, a life-changing benefit 
which allows veterans the freedom to select their own 
contractor. It can be used multiple times over a lifetime, and 
the grant amounts adjust annually to the cost of construction. 
The benefit can even be used to modify the home of a family 
member when veterans need family support or while they readjust 
after their service to the country.
    As I am sure you know, the statutory requirement for 
determining the feasibility and suitability of the veteran's 
living situation is a key driver in how the program has been 
designed over the years. This means that VA does not just cut a 
check to the contractor or to the veteran and walk away. 
Instead, we have a duty to ensure that veterans are able to 
thrive in a living situation the grants help to create and the 
adaptations meet each veteran's unique disability housing needs 
now and in the future as his or her condition changes over 
time.
    Living independently means something different for each and 
every veteran we serve, and each home adaptation project is 
uniquely different. SAH agents provide individual, in-person 
service to veterans in their homes, often at a time in their 
lives where they are vulnerable and in need of very personal 
assistance. SAH grants are designed to improve a veteran's 
quality of life and can also be life-altering for their 
caregivers.
    Take, for instance, a veteran who was confined to an 
upstairs bedroom in a small apartment while only being able to 
move every 6 months with the help of an ambulance crew who 
transported him for medical treatment. I take pride in knowing 
that because of this grant, the veteran not only has a larger 
bedroom, it is on the first floor with fully adaptable access 
to the driveway. The veteran's spouse can now stay in the same 
room with him and assure that he is cared for properly.
    In addition to this type of scenario, many veterans 
residing overseas are unaware of the life-changing benefits 
available to them. And face-to-face engagement with these 
veterans allows VA to assess their living conditions and 
adaptation needs. We are constantly looking at ways to improve 
areas of the program that are directly under our control. And 
we have recently made several operational changes to expedite 
the SAH claims process, de-layer our grant administration, and 
empower our local staff to make decisions aimed at improving 
customer service to veterans and decreasing overall grant 
timeframes.
    We are nearing a completion of a business process re-
engineering study where we gathered input from veterans, 
private-sector builders and contractors, and a variety of 
subject-matter experts to develop a roadmap for a streamlined 
and technologically advanced SAH Program.
    Additionally, we are conducting an analysis of SAH staffing 
and caseload distribution to determine how to best ensure that 
we have the right number of well-trained SAH agents in the 
right locations.
    We are also providing enhancements to the veterans housing 
adaptation benefits by transitioning housing modifications that 
are currently part of an independent living plan from the 
Vocational Rehabilitation Employment Program to the SAH 
program. Although both programs have worked collaboratively 
within VA for many years, Public Law 115-177 makes it more 
efficient for VA to deliver housing modifications to these 
veterans. Starting next month, SAH staff will formally begin 
handling housing adaptations under an independent living plan.
    Finally, I would like to touch on the work we are doing to 
enhance our outreach to our stakeholder community and in 
collaborative opportunities that exist to serve severely 
disabled veterans. We are analyzing our existing outreach and 
stakeholder communication strategies to identify opportunities 
for additional collaboration.
    I know that VA, VSOs, like the ones here today, and other 
stakeholders seek to foster positive relationships and maintain 
open lines of communication so that veterans we serve can 
obtain the housing outcomes they deserve. We can always benefit 
from working with other programs and organizations to identify 
creative ways to enhance our program and better assist 
veterans.
    Mr. Chairman, this concludes my statement. I appreciate the 
opportunity you have extended to me today, and I look forward 
to answering any questions that you or other Members of the 
Subcommittee may have. Thank you.

    [The prepared statement of Jeffrey London appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. London.
    General Landwermeyer, I now yield 5 minutes to you, sir.

  STATEMENT OF BRIGADIER GENERAL TOM LANDWERMEYER, USA (RET.)

    Mr. Landwermeyer. Chairman Arrington, Ranking Member 
O'Rourke, and distinguished Members of the Veterans' Affairs 
Subcommittee on Economic Opportunity, sincere thanks for 
granting Homes For Our Troops the opportunity to testify before 
the Subcommittee to review the VA's Specially Adapted Housing 
Grant Program. We are familiar with the SAH grant eligibility 
requirements as we use the grant as a screening criterion for 
our program of building specially adapted custom homes for the 
most severely injured post-9/11 veterans.
    We build homes exclusively for SAH-qualified veterans, with 
the exception of our blind veterans. Since our inception in 
2004, Homes For Our Troops has worked closely with the 
Department of Veterans Affairs to assist our severely injured 
veterans, and we enjoy a close, productive, working 
relationship.
    In March of this year, our staff met with the VA SAH 
representatives to discuss the challenges and recommendations 
that we highlight in our testimony. We share the concerns of 
our fellow VSOs and stand together before you to ensure that 
our Nation's most severely injured veterans continue to have 
the opportunity to live in a barrier-free environment.
    We see some challenges with the SAH program as it is today. 
Although the grant program provides important assistance to 
many injured veterans, the program as it stands leaves many 
veterans behind, as it does not include blind veterans with no 
other injuries, nor veterans with the loss of both hands as 
outlined in the SAH grant eligibility criteria on page 4 of our 
written testimony.
    As you can imagine, total blindness requires numerous 
technological and voice-activated adaptations to a home to 
enable the veteran to regain some of the freedom and 
independence that he or she has lost due to injury.
    Concerning the loss of both hands, whether a veteran loses 
his or her arms above or below the elbow, they still have lost 
the most important, functional part: their hands. Again, this 
requires significant adaptations to the home. Current 
guidelines are confusing as to what delineates the difference 
between loss of arms, or loss of hands. We respectfully ask 
your assistance in changing the SAH eligibility criteria to 
include non-correctible blindness in both eyes and the loss of 
or loss of use of both hands.
    Beginning 1 October 2012, 30 veterans a year who have 
suffered the loss of or loss of use of one lower extremity have 
qualified for the SAH grant under the temporary expansion of 
the grant, Public Law 112-154, Honor America's Veterans Act. 
The VA does a great job of informing eligible veterans of the 
SAH benefits. The area we see for improvement concerns this 
temporary expansion of the SAH grant criterion, which has 
caused some confusion in the veteran community.
    We see two actions that would help mitigate this confusion. 
One, the VA can take steps to ensure all staff are 
knowledgeable concerning the expansion of the grant criteria. 
We have encountered some situations where VA agents were 
unaware that a veteran should be qualified under the expansion 
criteria. Second, the VA could notify all veterans who were 
previously denied SAH eligibility prior to the expansion that 
took effect on 1 October 2012, that they may now meet the 
expanded criteria.
    Another area we discussed with the VA is changing how they 
transfer funds in conjunction with the SAH program, shifting to 
electronic funds transfer to both streamline the process and 
eliminate lost checks.
    Mr. Chairman, thank you for your attention, and Members of 
the Committee, I appreciate the opportunity to speak to you 
today, and I look forward to your questions.

    [The prepared statement of Tom Landwermeyer appears in the 
Appendix]

    Mr. Arrington. Thank you, General. We will now yield 5 
minutes to you, Mr. Henry.

                   STATEMENT OF STEVEN HENRY

    Mr. Henry. Thank you. Chairman Arrington, Ranking Member 
O'Rourke, and Members of the Subcommittee, Paralyzed Veterans 
of America would like to thank you for the opportunity to offer 
our views on the Department of Veterans Affairs Specially 
Adaptive Housing Grant Programs. The Specially Adaptive Housing 
Grant Programs help veterans with certain service-connected 
disabilities to live independently in a barrier-free 
environment by providing critical housing adaptations.
    Many PVA members have benefited greatly from the Specially 
Adapted Housing Grant Program. The accessibility provided 
through this program greatly increases the quality of life for 
these veterans. PVA employs a highly trained force of over 70 
national service officers across the Nation who develop 
benefits claims for both member and nonmember clients. After 
recently surveying our NSOs, we heard time and time again that 
SAH is a great program and the SAH agents are dedicated 
employees who work tirelessly in assisting veterans with 
completing the grant process.
    Even with the dedication of the SAH agents, however, 
veterans are still encountering difficulties. In our survey, we 
found three consistent concerns with the SAH program: finding a 
contractor, timeliness of the modifications, and inconsistency 
among the differing SAH offices.
    PVA's first concern with the SAH program is a veteran's 
inability to locate a responsible and experienced contractor to 
complete SAH modifications. One of the complicating factors 
with the SAH program is that a veteran must submit three bids 
to VA as part of the process. Normally this would not be 
terribly difficult for a homeowner who is completing a typical 
project. However, there are very few contractors who actually 
have experience with making home modifications for disability 
access. If a veteran resides in a rural area, it is even more 
difficult to find an appropriate contractor.
    With government bureaucracy comes a lot of red tape, which, 
in the case of SAH, is a lot of paperwork and procedures. VA 
will repeatedly ask for the same paperwork, making the process 
very redundant. Consequently, many contractors are not willing 
to work with VA.
    Furthermore, VA is known to take a long time to pay 
contractors, so they must complete the work before being 
compensated. This results in contractors having to carry 
construction costs on their own.
    PVA's second concern is the timeliness of modifications. 
After serving our NSOs, we have found that many veterans are 
waiting an average of 6 to 8 months and up to 2 years to have 
modifications completed. The ability to safely live 
independently is priceless, and any processes that foster 
delays must be addressed.
    For example, the average person diagnosed with ALS loses an 
average of 2 to 5 years after diagnosis. Many veterans 
represented by PVA rarely live past 1 year after diagnosis. 
Therefore, timely completion of SAH modifications is 
imperative. There have been instances where veterans have 
passed away before the modifications have even been completed.
    Recently, PVA met with VA executive leadership to discuss 
the SAH program and to voice our concerns. We raised our 
concern with timeliness and how long veterans have to wait to 
receive SAH modifications.
    Lastly, PVA is concerned about consistency in the 
administration of the SAH program across the Nation. PVA found 
the general consensus from our NSOs about concerns with the 
program. However, some NSOs also write concerns about the 
quality and speed of the work, which seem to depend entirely on 
the geographic location of the veteran. Veterans should not be 
punished for where they choose to reside. Instead, they should 
be able to receive quality service regardless of the location 
of their residence.
    In some locations, SAH agents are tasked with additional 
duties, including having the complete home appraisals for VA 
home loans and for veterans who are going through the process 
of refinancing their VA mortgage. Those same agents are also 
required to answer phone calls from VA's general hotline number 
that have nothing to do with the SAH program. PVA understands 
all positions carry the need to perform additional duties. 
However, to require SAH agents to complete tasks unrelated to 
SAH is unacceptable.
    We have also discovered that at least one office 
communicated to its agents that cases of terminal veterans were 
not to be expedited, that all veterans were to be treated the 
same.
    In light of our various concerns, we will begin meeting 
with the SAH program leaders on a monthly basis to increase 
feedback on the program. We are very pleased to have this type 
of open communication with the VA. We hope that through 
heightened communication with program leaders and the oversight 
of this Subcommittee that the program's administration will 
improve and result in better experience with this program for 
PVA members.
    We support Congress increasing the grant from the current 
amount of $81,080. In its recommendations to the 115th 
Congress, the coauthors of ``The Independent Budget'' Disabled 
American Veterans, PVA and Veterans of Foreign Wars recommended 
that Congress establish a supplementary housing grant that 
would cover the cost of new-home adaptations for eligible 
veterans who have already used their initial grants. Without 
the ability to access such a grant, veterans may be forced to 
choose between surrendering their independence by moving into 
an inaccessible home or staying in their current home simply 
because they are unable to afford the cost of modifying a new 
home.
    PVA would like to thank you for the opportunity to offer 
our views on the SAH program, and we look forward to any 
questions you may have.

    [The prepared statement of Steven Henry appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Henry.
    Mr. Kules, we yield to you 5 minutes as well.

                    STATEMENT OF RYAN KULES

    Mr. Kules. Chairman Arrington, Ranking Member O'Rourke, and 
distinguished Members of the Subcommittee, thank you for 
inviting Wounded Warrior Project the opportunity to testify on 
the Department of Veterans Affairs Specially Adaptive Housing 
Grant Program. My name is Ryan Kules. I serve as the director 
of Wounded Warrior Project's Combat Stress and Recovery 
Program, one of more than a dozen free programs and services 
our organization provides to wounded, ill, and injured 
sevicemembers and veterans who served on or after 9/11.
    Through the hard work of over 600 employees spread across 
the country and overseas, Wounded Warrior Project is connecting 
warriors and their families to their communities and each 
other, serving and saving lives through free direct programs, 
and empowering them to succeed and live life on their own 
terms. Wounded Warrior Project's advocacy related to specially-
adaptive housing is framed by two programs in particular. Our 
benefit service team connects warriors--or assists warriors of 
all disability levels with their benefits claims.
    And our Independence Program is helping meet the needs of 
some of the most severely injured warriors by ensuring they 
receive the care, services, and resources they need to thrive 
in the most independent and meaningful way possible. Today I 
also speak to you as someone who has utilized the SAH grant, 
and I hope my story can help frame the issues before the 
Subcommittee.
    So I was injured in 2005 in combat in Iraq. I lost my right 
arm and left leg, and at the time, I was 24 years old, newly 
married, didn't have any children. I was very fortunate to make 
it back to Walter Reed and spend about 18 months there 
recovering. I medically retired from the Army in May of 2007.
    And in 2009, my wife and I decided that we wanted to stay 
in the area and found a house that we felt comfortable in 
staying in the long term and decided to use our SAH grant to 
modify that home. In 2009, the grant cap was about $64,000, 
but, unfortunately, it didn't cover the over $100,000 that it 
cost to modify our home to meet my individual needs and make 
sure that I was successful and independent in the house.
    Fortunately, we have three beautiful little kids, and over 
time, our family grew, and we realized that we needed to change 
homes in order to better meet our family's--our growing 
family's needs. And in 2015, we sold the home that we had 
purchased in 2009, and fortunately, we didn't take a loss with 
the sale of the home, but we weren't fully able to recoup the 
amount of the SAH grant.
    In our current home that we purchased in 2015, we have 
modified that home to, again, meet my individual and personal 
needs. I am free to move about the home and shower and do all 
the things I need to do in the activities of daily living. 
Those modifications cost over $90,000 to complete to date.
    So, in this whole process, one of the things that I have 
learned is my needs are going to increase as I age. I will need 
additional adaptations, and the way the program sits right now, 
those changes are going to be my responsibility.
    So, with that, I would like to share with you two of the 
most significant areas that we have identified to help improve 
the SAH grant program, for both myself and for other veterans 
and servicemembers with catastrophic injuries. First, we urge 
the Subcommittee to eliminate the three-time-use cap that 
restricts the full and intended benefit of this program.
    Under current rules, veterans and servicemembers may only 
draw from their $81,080 SAH grant a total of three times. As 
disabilities worsen and families move, it is possible, and even 
likely, that a veteran will need to utilize portions of their 
$81,000 grant on more than three occasions.
    As a point of reference, according to a 2016 census study, 
homeowners will move, on average, five times in their life. And 
renters will move even more frequently. In order to make the 
Specially Adapted Housing Grant Program more closely aligned 
with the way veterans and servicemembers can reasonably be 
expected to live their lives, we recommend removing the 
condition that a grant may be only drawn from three times. 
Grants would continue to have the monetary limits, but there is 
no compelling reason to restrict this benefit with an arbitrary 
and unnecessary use cap.
    Our second recommendation is to allow previous 
beneficiaries the opportunity to refresh their Specially 
Adaptive Housing Grant history once every 10 years. We 
understand Congress needs to cap benefit amounts for budgetary 
reasons. However, it is not uncommon for veterans such as 
myself to utilize a full SAH grant and years later find 
themselves spending their own funds for modifications.
    In order to help VA meet these veterans' needs, we suggest 
the full benefit be reinstated for those in the program every 
10 years to accommodate for moving and the progression of 
disability needs, which in many cases can and should be 
expected. This benefit is reserved for the most 
catastrophically injured. And Specially Adaptive Housing Grants 
should be a life-long program to support life-long injuries.
    I, on the behalf of the Wounded Warrior Project, thank the 
Subcommittee and distinguished Members for the invitation to 
testify and stand ready to answer any questions that you may 
have.

    [The prepared statement of Ryan Kules appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Kules. I think I can 
confidently speak for the Committee: We appreciate your 
tremendous sacrifice, and we want this program to work for guys 
like you. You just make me so proud. And all of you, thank you 
for your service, and let's have a good discussion and see if 
we can't find ways to make improvements to this much needed and 
important program.
    Let me start with you, Mr. London, on the bill that we 
passed, the one I passed with my colleague, Mr. O'Rourke, what 
is the timeline again for--as you said next month, what are the 
logistics in that? Is it pretty simple to transition to the SAH 
agents from the voc rehab counselors? Do you think it is going 
to have the positive impact that we all intended when we passed 
that law?
    Mr. London. Yes, first, let me thank you and your 
colleagues for passing that legislation. I do believe that it 
will help us to be more efficient to serve veterans who need 
housing modifications. And the specific answer to your 
question, I am extremely confident that, starting on October 
1st, we will administer the housing modifications under the 
Specially Adapted Housing Program processes.
    The reason why I am very confident of that is, as I 
mentioned in my oral statement, that for over a decade, we have 
been working very closely with VR&E on these cases and our 
agents have familiarity with them. And a lot of the times, the 
cases are much simpler than the normal SAH cases that we 
administer. So I am extremely confident that we will be ready 
October 1st.
    We will make some additional enhancements to make things 
run smoothly and to have documented policies and procedures for 
staff by January. But staffs are already aware of the 
transition on both sides of the House, and I am extremely 
confident.
    Mr. Arrington. Mr. London, thank you. Describe the 
organization for me. Because I am often perplexed by how things 
are actually run and operated and who is on the ground making 
these things happen. Sometimes you got policy over here and the 
operations over there, and maybe they don't even talk. Break 
this down for me. The SAH agents work for whom? For you?
    Mr. London. No, they do not.
    Mr. Arrington. Okay. Who do they report to?
    Mr. London. They report to the regional office director in 
their location.
    Mr. Arrington. So in their respective regions?
    Mr. London. That is correct.
    Mr. Arrington. Is there standard practices and procedures 
for the SAH, or is this another one of those, we decentralize 
it so everybody does it a little differently?
    Mr. London. No, sir. That is where I come in, I do own the 
standardization. I own the policies and procedures that the 
regional offices across the country administer to my standard.
    Mr. Arrington. If I asked you who the best region was right 
now, could you tell me?
    Mr. London. I would argue that they are all serving our 
veterans.
    Mr. Arrington. Come on now. I love all my children too, but 
one is faster than the other. You know, one is better at 
riding. So I am just saying, if I--I'm not going to ask you to 
call them out. I am just saying, do you know who the best 
region is, in terms of implementation of your policies in this 
program?
    Mr. London. Just like any program or even any business 
concern, you always have entities out there who are leaders and 
who have best practices, and, yes, I can identify those places 
that have best practices. And I leverage those best practices 
when I learn of them.
    Mr. Arrington. Mr. London, I want to remind you, this is 
not a Supreme Court Justice hearing. We are just trying to get 
to the--now, listen, one thing I think, because I think there 
is a lot to discuss here, and I think some reasonable 
consideration to, what if someone loses a hand, but they don't 
lose their arm, or they lose the functionality of the arm, have 
they effectively lost--I mean, that, I am curious to know how 
we set the standard, why we set the standard. I mean, there is 
obviously cost involved.
    Also on the three-time use of the cap that you mentioned, 
Mr. Kules, I mean, it seems to me there is a reasonable 
argument of being able to draw that down again. There is a 
money issue, and there is offsets, but just on--I think one 
thing we can all agree on that doesn't cost us anything, 
probably would save money, is, finding operational 
efficiencies.
    And Mr. Henry brought up quality contractors, the 
difficulty of that, the paperwork involved. He used the word 
``duplicative.'' Six to 8 months to get these projects 
completed at maybe--maybe in the worst-case scenario, 2 years. 
So how are we going to streamline? You said you had a process 
redesign. Break that down. I have got 30 seconds, but if you 
will just answer that and then answer, why in the world 
wouldn't we prioritize terminally ill veterans, to make--if we 
are going to extradite anybody's project so they have the best 
quality of life in their last days of their life, why in the 
world wouldn't we do that? Maybe you are, but I heard that that 
wasn't the case. So try to answer as much as you can, and after 
that, I am going to delegate or defer to my Ranking Member for 
his 5 minutes.
    Mr. London. If you don't mind, I am going to start with the 
last point first. I want to be very clear that the statement 
about prioritization has some truth to it. We do not prioritize 
one veteran over another. However, with a veteran with a 
terminal disease, in this program, we have communicated to our 
specially adapted housing agents, they are to expedite that 
case. And let me explain what that means. By expediting the 
case, if you have a terminally ill veteran and there are 
specific modifications that they need right now, instead of 
looking at the full assessment of what they would need over a 
long-term period, streamline the process and give those 
immediate modifications, like modifying the bathroom, giving 
access ramps, things like that. So we do expedite the 
adaptations that veterans need. So I think there is a 
distinction between prioritization and expediting. So I wanted 
to make that clear.
    As far as operational efficiencies, I agree with you 
wholeheartedly. That is why we are doing the study that we are 
doing, and we have already realized some efficiencies from 
things that we learned. One thing that we have done, just last 
year, with the authority that I have, I made the decision that, 
even though there were some potential legal impediments in VA 
providing a list of contractors, I leaned forward because it 
was the best thing to do for veterans. And I now make a list of 
contractors who have done previous projects available to 
veterans with all the necessary disclaimers, so that all 
parties know that the government is not endorsing or 
recommending contractors. But we have already seen that having 
a lift, and as we get that more streamlined across the regions, 
we are going to see that have a big lift.
    So there are things like that that we are doing, 
commonsense things, when we are working with contractors, 
making sure they understand the process upfront because, as Mr. 
Henry said, there is sometimes back and forth. And what the 
back-and-forth is, if we say that a ramp has to be in a home, 
it has to meet certain specifications for that veteran. And 
sometimes what we see in the plans, it is not documented. As 
you know, what is written is what gets done, and that is what 
we hold people accountable for. So, if the plans and 
specifications don't meet the veteran's needs, that is setting 
up the veteran for failure.
    So what can we do to streamline the process? Make the 
process better known upfront. So those are some of the things 
that we are doing.
    Mr. Arrington. And I am going to yield 5 minutes to the 
Ranking Member, but if you--if I might just indulge for just a 
minute. At some point, I want to know what the timeframes are 
to date, on average, to put in a ramp, apples to apples, and 
what we are trying to reduce the timeframe, for example. So 
some hard targets--
    Mr. London. Sure.
    Mr. Arrington [continued].--sort of empirical movement. You 
don't have to talk about that now, unless they want to dig into 
it, but I would like to know what those goals are because what 
gets measured gets done, and it would be nice to have some 
measurable goals in reducing timeframes and other sort of 
burdens.
    Mr. O'Rourke?
    Thank you.
    Mr. O'Rourke. Mr. Chairman, I am going to ask a few 
questions that were just generated by comment from the 
panelists.
    But first, Mr. Kules, I want to make sure I understand the 
anecdotes that you shared. You said the total cost to 
rehabilitate the first home that you and your wife moved into 
was $100,000. If you don't mind telling me, how much of that 
was covered by the SAH program?
    Mr. Kules. Yes, sir, it is correct. The total was $100,000, 
and the grant cap at the time was just over $64,000.
    Mr. O'Rourke. So you received $64,000 to that 100?
    Mr. Kules. Yes, sir.
    Mr. O'Rourke. And the second home was a $90,000 cost, and 
how much did you receive towards that?
    Mr. Kules. Zero, sir, because I had--
    Mr. O'Rourke. You had exhausted the--
    Mr. Kules [continued].--I had exhausted my grant, yes, sir.
    Mr. O'Rourke. And so as--Mr. London, as that cap--as the 
aggregate cap moves up, and it is now at $81,000 would someone 
in Mr. Kules' position be able to reapply for the additional 
difference, the $20,000 between the 60 and the 80 that is the 
current cap?
    Mr. London. So, as long as the veteran has remaining grant 
funds available, as the grant increases each year, those funds 
are made available up to the statutory limit.
    Mr. O'Rourke. How about just using his anecdote? He used 60 
so many years ago, and now that it is up to 80, does he have a 
$20,000 balance for the next modification?
    Mr. London. No, sir, we don't have the statutory authority 
to do that.
    Mr. O'Rourke. Okay, so that is something you need from us--
    Mr. London. That is correct.
    Mr. O'Rourke [continued].--that change? That is helpful.
    Let me ask a couple of questions that General Landwermeyer 
posed. On the issue of total blindness and the loss of both 
hands, do you need statutory clarification, or is that 
something you can administratively correct and provide 
clarification for the contractors?
    Mr. London. My understanding is we do not have statutory 
authority for those circumstances.
    Mr. O'Rourke. Okay. So that one's on us as well for--
    Mr. London. The statute is very specific in the criteria.
    Mr. O'Rourke. Because you mentioned, General, that the 
guidelines are confusing. And so my question is just, how do we 
clarify? It sounds like, according to Mr. London, that is going 
to be through law.
    How about educating VA staff? The comment was made that 
some staff are unaware of guidelines, or aren't perhaps 
educated enough to be able to provide clear guidance to 
contractors or veterans. Any comment on that, Mr. London?
    Mr. London. So because the statute is clear on what the 
criteria are even for the temporary expansion, the staff in the 
Veteran Service Center on the disability compensation side of 
the house, they rate cases to their criteria, so the sooner the 
veteran meets that criteria, we get the rating decision that 
that veteran is eligible. So my staff in Loan Guaranty 
understand and are aware of the requirements because it is in 
the veteran's award letter.
    Mr. O'Rourke. No room for improvement there?
    Mr. London. No, sir.
    Mr. O'Rourke. Okay.
    Mr. London. I think--but if I could just clarify, I think 
going back to what the Brigadier General was saying is that, if 
the law was clear to include those criteria, then we would be 
able to administer the grant.
    Mr. O'Rourke. How about--this seemed like a great 
suggestion to me--notify all veterans who have been previously 
denied that they may now be eligible? Is that something, once 
you get the clarification from Congress that you need by 
statute, that you can administratively pursue, or do you need 
authorization and appropriation specific to that from Congress?
    Mr. London. We can administratively pursue that. I don't 
need any assistance on that. But there is a point I want to 
bring up. Not only is the criteria very specific, but there is 
a cap in statute to 30 veterans per year. So even if I were to 
reach out to those specific veterans, we may have already 
exceeded our statutory cap for that year.
    Mr. O'Rourke. What is the logic behind that cap?
    Mr. London. That was specifically, I think it was--to be 
quite candid, a costing issue, from your side of the house, 
sir.
    Mr. O'Rourke. Okay. The point raised about electronic funds 
transfer.
    Mr. London. I am glad that was brought up today because I 
am happy to report that we have a pilot program that we are 
working on in our St. Paul regional office that we believe we 
will be able to streamline the transfer of moneys and we will 
be able to do things via electronic file transfer. So I am 
extremely excited about that in the future.
    Mr. O'Rourke. Do you think that meets the spirit of Mr. 
Henry's concern about the paperwork is asked for repeatedly, 
and it is a disincentive for contractors to work with the VA on 
this? When you are doing electronic funds transfer, are you 
also digitizing other aspects of this, so you file the 
information once, it is within the VA, and it gets processed, 
and you are paid in a timely fashion? Is that essentially the 
idea--the idea here in terms of what you are trying to achieve?
    Mr. London. The electronic funds transfer is a separate 
issue. I think the other piece is more of a communication 
issue, and it is improvement on VA's part to ensure that the 
contractor understands upfront what the requirements are to 
avoid the back-and-forth.
    Mr. O'Rourke. And just the last point--my time is about up, 
but I also noticed that Mr. Henry mentioned inconsistency by 
different SAH offices. The general mentioned the need to 
perhaps educate VA staff who may be unaware of qualifications. 
I just take that as constructive criticism and see if there 
isn't a way to better educate all VA staff on these issues, you 
know. And maybe this is a perfect opportunity for an offline 
conversation with the general and Mr. Henry to find out what 
the specific concerns are and to bring that back to your team 
just to make sure that everyone's, you know, on the same page 
on these issues. So, appreciate it, Mr. London.
    Mr. London. Thank you.
    Mr. Arrington. Thank you, Mr. O'Rourke.
    Mr. Bilirakis, you have 5 minutes.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman.
    I appreciate it very much. And I thank all of you for your 
service. I have a couple of questions.
    To follow up with the Chairman's question, your testimony, 
Mr. Henry, actually, your testimony mentions concerns about 
those with terminal illnesses, like ALS, not being prioritized 
for SAH benefits at the VA. Could you share more about these 
concerns and the steps needed to fix this problem?
    Mr. Henry. Is that a question--
    Mr. Bilirakis. Mr. Henry, yes.
    Mr. Henry. Okay. Thank you for that question. We just--we 
are concerned that the men and women that are diagnosed with 
this disease just aren't being placed in the front of the line. 
And just giving an example, so I recently--I have assisted five 
veterans personally with their claims for ALS and service-
connected disability compensation. Out of those five, none of 
them made it to a year. They all died probably less than 9 
months after diagnosis. The most recent one was diagnosed in 
November, and he passed away in March.
    The spouse of that veteran refused to use the VA program 
because when she spoke to--I guess when she spoke to the person 
or the agent, they said it was going to be about 9 months to a 
year before they actually received the modifications to the 
home. Now that veteran, the first time I met him in October, he 
could walk. He could talk. He kind of mumbled a little bit, but 
he was still coherent. He was drinking a cup of coffee. I saw 
him in December. He was in a wheelchair. He couldn't--he no 
longer feed himself, he could no longer talk. He had to be on a 
respirator. So the disease manifests to such a rapid degree 
that, within 5 to 6 months, their condition is just so 
negatively impacted that it is so important that these 
modifications are done as soon as possible. Six to 8 months go 
by, these men and women are completely different, and their 
needs are completely different. And so we just feel that these 
men and women need to be placed ahead of the line.
    I actually had a conversation with Mr. Kules about this, 
and I said: Look, I am going to bring up in my testimony that I 
feel that men and women with terminal illness should be placed 
in line. I am not trying to say anything about your condition 
or your personal experience, but PVA membership really believes 
that our members who have a terminal illness should be placed 
ahead in line.
    And Mr. Kules even said: I agree with you. If someone does 
have a terminal illness, they should be placed in front of the 
line.
    Mr. Bilirakis. Mr. London, you want to respond to that?
    Mr. London. Yeah, absolutely. First and foremost, Mr. 
Henry, I agree with your sentiment about the expedition that 
these veterans need, and you have my commitment.
    And I want to give the commitment to the Committee that we 
will focus on this issue. In just 2 weeks, I am going to be 
meeting with all of the management staffs from around the 
country. Every region will be with me face-to-face, and this 
will be a topic that I will spend considerable time with to 
make sure that it is crystal clear how we are to expedite these 
cases so that we can serve those men and women with terminal 
illnesses who are eligible for this program.
    But I want to be very clear that I am not going to give 
instruction to put one veteran in front of another. I have an 
ethical duty to make sure that we are serving every veteran, 
but I think we can lean forward and get these veterans what 
they need faster than we are doing today, absolutely.
    Mr. Bilirakis. Okay. Thank you.
    For Mr. London, in your experience, how often do veterans 
have to pay out-of-pocket to have home adaptations completed?
    Mr. London. It is hard to put a hard number to that. I 
certainly can give you anecdotal experience, not only from my 
leadership experience, but I spent over a year on the SAH 
policy staff. So I have intimate knowledge of the process. And 
in a significant number of cases, like Mr. Kules', veterans do 
have to put some moneys into the project because the grant does 
not cover all of their needs. So that certainly doesn't happen 
in every case, but I would certainly quantify it as a 
significant number.
    Mr. Bilirakis. Okay, let me ask you--and I also want to ask 
the general if he is in agreement with that, the assessment. 
But also some of the nonprofits that actually build homes for 
veterans who are disabled, how do--do they have access, or does 
the veteran have access to those grants? How does that work? 
Does anybody want to respond to that?
    Mr. Landwermeyer. Sir, I would be glad to. We build our 
specially- adaptive custom homes across the country, and then 
we donate them to the veterans. So if they have already used 
part of their SAH grant, wherever they may be living before 
they go into our home, they still have the rest of it left 
over, if they want to do something additional in the home. Our 
homes have more than 40 special adaptations inside of them to 
return--let them regain that freedom and independence that they 
lost from their injuries.
    Mr. Bilirakis. So, Mr. Kules, if you had a home that was--
obviously you earned it, but let's say a nonprofit actually 
built a home for you and your family--which I commend them so 
very much for doing--would they, these 40 adaptations, is that 
suitable to you, or would you have to go out of pocket or spend 
the rest of your grant to make it suitable to you, adaptable, 
or convenient for you to live? If you could answer that, I 
would appreciate it.
    Mr. Kules. Of course, thank you. I think with having a 
nonprofit step in and be able to do that, we are very fortunate 
to have the support of other nonprofits that are able to raise 
the support of communities in order to pay for these 
modifications. But with this SAH program, the intent of it is 
to be a life-long benefit for injuries that are going to extend 
for a lifetime. So knowing that as folks do move five times 
over the course of a lifetime, being able to have a home that 
they are able to move from one place to another, and they want 
to retire and be closer to their children, be able to continue 
that support over the course of a lifetime, I think, is vitally 
key.
    Mr. Bilirakis. Very good. I appreciate that.
    Mr. Chairman, my concern is--I have got a few concerns, but 
the out-of-pocket. I mean, how many veterans can afford--how 
can anyone afford these out-of-pocket necessary adaptations? 
But thank you so very much for your service. Looking forward to 
working on this issue.
    Mr. Arrington. Thank you, Mr. Bilirakis.
    Mr. Takano, you have 5 minutes, sir.
    Mr. Takano. Thank you, Mr. Chairman.
    I am going to remember that little trick you used with 
your--I don't have any children; that is the problem. I can't 
say that, you know, ``I love all of my children, but one of 
them runs faster than the other''. But that is the advantage of 
being a father.
    All right. Mr. London, can you tell me how much of your 
caseload or how much of the entire SAH caseload has terminal 
patients, like those with ALS, for example?
    Mr. London. Yeah, to kind of put it in perspective, we have 
about 4,000 active cases around the Nation for specially-
adaptive housing right now. And approximately 300 of those are 
veterans with terminally ill conditions including ALS. So the 
workload is relatively small, comparative to the overall 
workload.
    Mr. Takano. So it is less than 10 percent of the total?
    Mr. London. Yes.
    Mr. Takano. Slightly less than 10 percent--
    Mr. London. That is correct.
    Mr. Takano [continued].--of the total number? So 4,000 
would be served by this program.
    We might--I see you having to parse your words very 
carefully, not putting one--the use of the word ``priority'' 
versus ``expedite.'' But, you know, I used to be an English 
teacher. I think it is very important to be very clear. I think 
the practical outcome is that we want people who have ALS, or 
who have a terminal illness, and we know people with ALS are 
going to--they are going to have changing needs, that we need 
to be practical, and we need to have a government program that 
responds to them, and it makes no sense that the spouse has to 
turn down this program because they can't practically use it. 
And that is not really serving the veterans.
    So what do we need to do to change--to have the ability to 
be able to be more plain-speaking, to be able to be more 
forthright? I am not saying you are not forthright. But there 
is something in the regulations that doesn't allow you to be 
forthright.
    Mr. London. Here is my commitment to you, because I agree 
with your sentiment about using commonsense approaches, and 
that is exactly what I am saying about expediting the 
processes. I believe there are things that we can do in my 
program without a statutory or regulatory change to get these 
services to those men and women faster than we are today. So I 
would like the opportunity to do that first without any other 
statutory--
    Mr. Takano. All right.
    Mr. London. Because I think I can get there.
    Mr. Takano. Fair enough. So, my friends at the PVA are 
going to be able to tell me in a short while of time, in a 
short period of time, that this is no longer a problem for the 
terminally ill patients or terminally ill veterans that need 
this service?
    Mr. London. I think over a short period of time, they will 
be able to report to you improvements, for sure.
    Mr. Takano. Okay. I will be interested to know that. I will 
be in touch.
    How do you see the SAH working with the VA home loan 
program? Are there improvements we can make so that the two 
programs can support each other to make home purchases easier 
for disabled veterans who require home modifications?
    Mr. London. I would argue that the two programs work really 
well together today. Because the staff who do SAH also work 
with the other folks in our regional loan centers who do the 
home loan programs. They have a good working knowledge of how 
that process works. I would say that the SAH job is one of the 
most rewarding and challenging jobs in the VA. Because not only 
are they talking to the veterans about our program, they are 
educating the veteran about other programs, including the home 
loan program. So I would argue that we already have the 
expertise and knowledge where it needs to be.
    Mr. Takano. Thank you.
    Mr. Kules, or anybody else, would you have a different 
point of view? I mean, it is a chance for you to maybe 
reiterate some of the things you said at the end of your 
testimony.
    Mr. Kules. As far as my particular situation, I actually 
utilized the home loan program to purchase the house that we 
did in 2015, and that process was very much seamless. So I have 
no concerns about that process, but--
    Mr. Takano. So you think that the two programs work well 
together? You would echo the comments of Mr. London?
    Mr. Kules. Sir, the home loan program worked independently. 
Because at that time, I didn't have any SAH grant funds 
remaining, so--
    Mr. Takano. I see.
    Mr. Kules [continued].--I was out on my own to be able to 
secure that mortgage and be able to purchase a home and then 
have the capital to make the modifications myself.
    Mr. Takano. Any time remaining, I just want you to 
reiterate the ask that you made. You summarized it at the end 
how you would change the program for someone like you. What 
kind of struck me, you said that you started off as a younger 
man, you gained children, you want to move into a bigger house, 
that the program needs to account for individuals. And with 
only 4,000 currently in the program, I don't know what the 
numbers would do if we started to make changes, that would add 
numbers, add people like you to the program, because we were 
going to change it. But kind of reiterate those changes, 
because I want to hear those again.
    Mr. Kules. Yes, sir. So, if you took the example of someone 
purchasing and modifying a home at the age of 30 and the 
average person moves five times in their lifetime, if you were 
able to authorize folks to be able to utilize their grant in 
its totality once every 10 years, that would carry a veteran 
that qualifies for this grant from age 30 to age 80 in an 
adaptive house that is able to meet their needs and allow them 
to live independently.
    Mr. Takano. So you would be asking for a resetting of being 
able to use the grant--
    Mr. Kules. Yes, sir.
    Mr. Takano [continued].--anticipating that every 10 years--
I mean, that is a sensible ask and I think a reasonable one. 
Anything else?
    Mr. Kules. Sir, I think the cap on utilizing drawing from 
the grant three times needs to be done away with. With folks 
moving, as I said, every--five times over the course of a 
lifetime, that is an opportunity to be able to do away with 
that and allow folks to utilize their $81,080 grant cap on 
whatever modifications they need and not have to worry about it 
over the course of their time.
    Mr. Takano. All right, thank you. Thank you. I yield back.
    Mr. Arrington. Thank you, Mr. Takano.
    Mr. Correa, you have 5 minutes.
    Mr. Correa. Thank you, Mr. Chairman, and, gentlemen 
veterans, thank you very much for your service to our great 
Country. You are appreciated. You are our heroes.
    Mr. Kules, thank you very much for some of those comments 
and recommendations you just made to Mr. Takano.
    Mr. London, I wanted to follow up, you said something that 
touched me, which is you don't want to choose one vet over 
another. So my question would be, why have a waiting time at 
all? Why do you have to wait? Are we short on personnel to 
process these applications? Are we going through a process to 
try to minimize fraud, waste, and abuse? Are we trying to 
figure out whether there are some of these veterans are 
actually qualified to get these grants? We know what their 
needs are, and so why is it that we have to wait so long? Lack 
of personnel? Lack of folks to actually go through and process 
the applications, or is it lack of qualified contractors in our 
communities that are needed to move ahead with these 
construction projects? Why is it that we have a waiting line at 
all?
    Mr. London. I would argue that we do have the right staff. 
Let me point out some parts of the process to you. First, as 
soon as we get a rating decision from the disability 
compensation staff, within 1 or 2 days, we are in contact with 
that veteran and his or her family. Within 30 days, over 98 
percent of the time, we are in that veteran's home, talking to 
him or her and their family members. So from a timeliness 
standpoint, our staff are on top of things right away.
    Where the timeline comes in is, once we are notified that a 
Veteran is eligible and let me point out another piece.
    While we are there doing the initial interview, in most 
cases, the veteran wants to modify that existing home. So, 
while the SAH agent is there, they are actually looking at the 
home, assessing the veteran's needs and taking documented notes 
on what is needed for that veteran. So, within 30 days, to your 
point, we have a really good idea of what the needs are.
    The next part of the process, we now empower the veteran to 
choose the contractor. And that is where I mentioned that one 
of the administrative decisions that I made was to provide a 
list of contractors in that veteran's area who have done 
previous projects.
    Mr. Correa. So essentially a list of qualified contractors?
    Mr. London. Contractors who have some experience with SAH 
projects.
    Mr. Correa.--you are, pick one, and go.
    Mr. London. Yes. Now, in some locales there, there is a 
need to identify more contractors, and that is something that 
my staff is taking on, is how can we work with the private 
sector to make sure that people understand this benefit so that 
they can sign up and be a part of the roster, if you will, for 
veterans to make that decision.
    So there are some things that we can do from an 
administrative perspective, but we empower the veteran, and we 
assist the veteran in making a decision, but it is his or her 
decision on who they contract with.
    And I do want to clarify one point. I believe in Mr. 
Henry's testimony, he mentioned that it is a requirement for 
three bids. That is a standard. But obviously we work with the 
veteran, and the veteran can waive that requirement so that we 
can move things faster. So there are things that we are doing 
from a commonsense approach--
    Mr. Correa. You know, in my area--excuse me for 
interrupting you.
    Mr. London. Yes.
    Mr. Correa. In my area in southern California, we have a 
lot of veteran-owned construction companies that are always 
fighting for business. Is there any way we can make it a win/
win to get those veteran-owned construction companies to 
actually service some of these veterans?
    Mr. London. I would love if you and your staff could give 
me a list of those, and anyone else, who has stakeholders like 
that. I would love to talk and meet with them.
    Mr. Correa. I would like to work with you on that because, 
again, you have a shortage, and yet, over there, we have excess 
capacity.
    Mr. London. I would love to do that. Thank you.
    Mr. Correa. Are you done, or do you have any additional 
comments?
    Mr. London. No, sir.
    Mr. Correa. Again, my thought is, how do we streamline this 
process? Everybody is on the same page. Let's get it done in a 
timely manner and stop pointing fingers, but rather, let's 
figure out how to do this correctly.
    Mr. London. Yes, sir.
    Mr. Correa. Mr. Chairman, I yield the remainder of my time.
    Mr. Arrington. Thank you, Mr. Correa.
    I am just going to ask the Ranking Member if he has any 
follow-up questions or comments.
    Mr. O'Rourke. I do not.
    Mr. Arrington. I just have a couple, and I understand if 
you guys have to leave. I hope you don't, but if you have to, I 
understand, but I just have a couple.
    Again, back to the organization and how we make the 
organization work to perform for the desired outcomes that we 
all have, seems to--that component seems to trip up a lot of 
good programs and ideas.
    So, Mr. London, what would you do to change the overall 
operation to make it work more effectively and efficiently to 
serve the veteran customer, I mean, if you could just have 
total control? And then is that something we could do to help 
you, or is that an internal sort of organizational decision?
    Mr. London. I believe it is an internal organizational 
decision, first and foremost. But I will tell you that within 
my span of control, I believe I do have the authority to make 
the decisions that I need to make to make sure that each and 
every regional loan center, where these specially adapted 
housing agents are located to work with the veterans 
consistently, I believe that I do have that span of control 
today through policies and procedures in the oversight that I 
conduct.
    Mr. Arrington. Can you fire an SAH agent?
    Mr. London. I cannot, no, sir.
    Mr. Arrington. Can you fire a regional director?
    Mr. London. No, sir.
    Mr. Arrington. I don't think you have enough control. And I 
am not saying I know how to wire it so that you do, but you set 
the policy, and you set the guidelines, and you set maybe even 
the benchmarks for how long it should take to put a ramp in or 
a grab bar, but who is going to enforce that so that there is a 
sense of urgency and commitment to meeting those standards? I 
don't think it is you, and not trying to be disrespectful. I 
wish it were because I have a lot of confidence in you, quite 
frankly. But who is going to ensure that your policies, 
assuming that the benchmarks and policies that you have laid 
out are best practices for these sorts of things, who will 
ensure that that happens?
    Who has the power to fire folks? And I am not suggesting we 
fire folks, but we try to get them to the point where they can 
do their job optimally. But if they can't, who are they 
accountable to? The regional director, I assume.
    Mr. London. That is correct. And then the way it works 
today is if I see someone who is not upholding the standards 
that I set, I can work with my peers who have that particular 
authority.
    Mr. Arrington. Okay. The authority to hold the regional 
director--
    Mr. London. Hold people accountable, that is correct. That 
is correct.
    Mr. Arrington. When is the last time a region was taken to 
task because they were not hitting the benchmarks for these 
things to serve these heroes of ours? When is the last time 
that you were upset with the way they were performing, the 
region, and that they were taken to task for that?
    Mr. London. I will be very candid with you. I had a 
critical conversation with a frontline supervisor just several 
weeks ago where I was unhappy, so I spoke to that accountable 
manager who reports to the regional office director. I went 
directly to that individual and explained my discomfort and 
what they needed to do, in my view, to get back on track.
    Mr. Arrington. The next time we have someone in the chain 
of command for those regional directors, you need to let them 
know that I am going to ask about how they manage and how they 
hold their regional directors accountable for these particular 
performance goals, because they are just--everything is 
important, but those who have borne the battle the most, I 
mean, there are a lot of great programs and--for our veterans, 
and we love and respect them all, and we want to serve them. 
But I just can't imagine that a service that we provide that is 
just more important that we deliver on than what you are 
working on this program we are talking about.
    Do we need to pass a law to allow you to say you will make 
the terminally ill veteran a priority and not just expedited?
    Mr. London. In order for me to put one veteran ahead of 
another, I believe I do not have that statutory authority. That 
is my understanding.
    Mr. Arrington. Okay. Well, we are going to give that to 
you. I can't imagine anybody on this Committee that would 
disagree that 300 out of 4,000 cases shouldn't be prioritized 
because of what Mr. Henry articulated earlier. And I don't--I 
bet--is there anybody on the panel that disagrees with that? 
Would you all be in full agreement for us to pass a law so that 
he can prioritize those who are terminally ill?
    Mr. London. And, Mr. Chairman, if you don't mind, what I 
would like to do is to go back and confirm and report back to 
you whether or not we have the statutory authority or not.
    Mr. Arrington. Okay. Please do.
    Last question, just on numbers. Did you say you do have or 
don't have the average payout or drawdown per veteran for these 
modifications? So exhausting all three, if they need--if they 
did exhaust all three or if they just chose to drawdown one 
time, what is the average?
    Mr. London. Well, I can give you that number. I just don't 
have that number off the top of my head, but we do have the 
capability to get that number.
    Mr. Arrington. Do you know approximately? Is it 60? 70? 75? 
Is it lower? Can you give me a ballpark?
    Mr. London. I would say it is north of 50 percent. That is 
my guesstimate.
    Mr. Arrington. Okay. North to 50 percent of the total?
    Mr. London. Of the total, that is correct.
    Mr. Arrington. Okay. But it is not 79, 99, 99?
    Mr. London. I would have to look at the numbers, but I 
can't make a commitment to you, but I would say it is 
definitely north of 50 percent.
    Mr. Arrington. And what ballpark range, what percentage of 
veterans like Ryan over there drew down 100 percent and had a 
net amount left I don't ever because it just cost him--whatever 
the cost was, was greater than the benefit? Do you know the 
percentage of veteran that is in a situation like that of all 
that your customers?
    Mr. London. I want to make sure I understand your question, 
because Mr. Kules' situation was a little different. If I 
understand correctly, at the time that he went through the SAH 
process, the grant amount was around $64,000, and he exhausted 
that grant amount, but he needed more at that time.
    Mr. Arrington. In that case--
    Mr. London. Right, in that case.
    Mr. Arrington [continued].--what percentage of veterans 
don't have enough to draw down to meet their need?
    Mr. London. Oh. Let me--I will answer the question this 
way, sir: I believe in each and every case that we have, if we 
had more dollars available, we would be able to provide more 
adaptive features.
    Mr. Arrington. Okay. Thank you all for coming.
    Yeah. Yeah, Ranking Member, I yield time to you.
    Mr. O'Rourke. Yeah. Sorry. And sorry to interrupt you, Mr. 
Chairman. I just--one quick thought, and hopefully you agree. 
Just given that we have got Mr. London here, we have someone 
who helps to do the contracting and construction and is very 
familiar with the process, someone who advocates for veterans 
and helps shepherd them through the process and somebody who 
has been through the process.
    I wonder, given all the great suggestions that we got from 
Mr. Kules talking about three-time eligibility and the general 
suggestion on clarifying the limitations on blindness and dual 
amputation, some of the other suggestions and questions that 
came up, would it be possible for our two staffs and Mr. London 
to work together on cost estimates for Mr. Kules' suggestion, 
understanding what that would be, whatever statutory changes we 
need to make per Mr. London's advice and then share that with 
the Committee? And if there is common ground on some of these 
issues--and I think there is going to be--and it requires an 
act of Congress, we can begin that from this Committee--
    Mr. Arrington. Absolutely.
    Mr. O'Rourke [continued].--because I think we have got all 
the necessary stakeholders here to make that progress.
    And whatever you can do administratively, Mr. London, and 
you can report back to us and say, ``Hey, I have been able to 
take care of this issue,'' all the better. And then we can go 
back to our constituents and share that as well.
    Mr. Arrington. Absolutely.
    Mr. London. Absolutely.
    Mr. O'Rourke. So that would just be the suggestion for all 
parties here.
    Mr. Arrington. Not only is that a reasonable consideration 
that, to me, is the essence of our job. And I am glad you 
mentioned that. And let's get--let's make that happen.
    Mr. London, we will execute on that after we close out 
today, and then we will have that additional discussion with 
the Members of the Committee. So great suggestion.
    Mr. O'Rourke. Great. Thank you.
    Mr. Arrington. Again, really appreciate you guys, very 
informative and productive.
    I am going to say it again, Mr. London, I am always 
impressed with you and your professionalism. That is not easy 
because I get very frustrated with these hearings and what is 
not happening that I think should happen. But you conduct 
yourself well, and you represent, I think, the very best of the 
VA. I really believe that.
    So thank you for your professionalism and your 
forthrightness. Let's keep working together. It will only work 
when you identify things that, as my colleague suggested, where 
we can help because you can't and your organization can't. It 
is a matter of law and policy that Congress must take up. So 
keep the lines of communication open. God bless.
    Mr. London. Thank you.
    Mr. Arrington. And we will close out with these formal 
remarks: I ask unanimous consent that all Members have 5 
legislative days in which to revise and extend their remarks 
and include any extraneous material in today's hearing.
    Hearing no objection, so ordered.
    This hearing is adjourned.

    [Whereupon, at 3:08 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Jeffrey London
    Good morning Chairman Arrington, Ranking Member O'Rourke, and other 
Members of the Subcommittee. Thank you for the opportunity to appear 
before you today to discuss the Department of Veterans Affairs (VA) 
Specially Adapted Housing (SAH) Grant program.

Overview

    The mission of VA's Housing Benefits program is to maximize 
opportunities for Servicemembers and Veterans to obtain, retain, and 
adapt their homes by providing viable and fiscally responsible benefits 
in recognition of their service to our country. VA recognizes that the 
process of delivering SAH benefits to Servicemembers and Veterans as a 
part of this program requires timeliness, innovation, expertise, and 
continuous improvement.
    We empower Servicemembers and Veterans with information and access 
to innovative, high-quality products and services, and we actively 
engage industry and non-profit partners in delivering benefits in an 
efficient and effective manner. Loan Guaranty Service's SAH program and 
the Individualized Independent Living Plan (IILP) from the Vocational 
Rehabilitation and Employment (VR&E) program are available to eligible 
Servicemembers and Veterans. As such, please note that when I refer, 
throughout my testimony, to Veterans who are eligible for these 
programs, this also includes Servicemembers. Through our focus on 
Servicemembers and Veterans, the partnerships we have developed, and 
our continuous drive to innovate in areas of operations and 
performance, we have built a high-performing SAH program that has 
provided over 37,000 grants, totaling over $1.29 billion since the 
program's inception in 1948.
    The SAH Program administers several types of grants that are 
available to Veterans under chapter 21 of title 38, United States Code 
(U.S.C.) Grants authorized under 38 U.S.C. Sec.  2101(a) are most 
commonly used for making homes wheelchair accessible. Grants authorized 
under 38 U.S.C. Sec.  2101(b) are generally used for other mobility-
related issues throughout the homes. Temporary Residence Adaptation 
(TRA) grants, authorized under 38 U.S.C. Sec.  2102A, are available to 
Veterans who reside temporarily with family members and need to adapt a 
family member's home to meet the Veteran's needs. Finally, under the 
recently enacted Public Law 115-177, assistance for housing adaptations 
made necessary under an IILP from the VR&E program now falls under the 
SAH Program. I will address this exciting change later in this 
testimony.
    The statutes set forth Veterans' eligibility standards, which 
include criteria relating to entitlement for compensation under chapter 
11 of title 38, U.S.C., term of military service, nature of disability, 
legal right to occupy the housing unit, and ability to afford the 
housing unit. Congress established maximum aggregate amounts of 
assistance available under sections 2101(a) and (b) grants and directed 
VA to increase such limits to correspond with increases in the 
residential home cost-of-construction index. Veterans can receive up to 
three grants of SAH assistance, subject to the aggregate limits. For 
fiscal year (FY) 2018, the aggregate limit is $81,080 for section 
2101(a) grants and $16,217 for section 2101(b) grants. Section 2102A 
also ties TRA grants to the same cost-of-construction index as the one 
used for sections 2101(a) and (b) grants. The FY 2018 limits for TRA 
grants range from $6,355 to $35,593, depending on a Veteran's 
eligibility.
    Since 2008, VA has administered SAH grants to Veterans and 
Servicemembers living outside the United States (OUS). These OUS 
Veterans live on nearly every continent across the globe in countries 
such as Germany, the Philippines, Thailand, Canada, Peru, and New 
Zealand. Since program inception, VA has approved 54 OUS grants, and 
SAH agents are currently monitoring 133 active cases for Veterans who 
are rated eligible or who are awaiting a VA compensation service 
entitlement decision.
    In many instances, OUS Veterans use the SAH grant similarly to 
those Veterans who live in the United States; for example, to widen 
doorways or install roll-in showers to accommodate wheelchair access. 
However, housing conditions in some countries are such that the SAH 
grant provides Veterans with basic, but life-changing adaptations such 
as indoor plumbing and a means to bathe independently.
    VA's approach to administering OUS grants is in-person 
individualized service and relationship building with Veterans. Some 
Veterans living abroad are disconnected by location or technology from 
the United States Government and VA benefits. Our SAH agents make it 
their mission to develop productive relationships with Veterans and 
work closely with them at every stage of the grant process. Our agents 
have provided a lifeline for Veterans in need of SAH or other VA 
assistance, who would have not, otherwise, been served.
    Since 2016, VA has made SAH Assistive Technology (SAHAT) grant 
funding available to individuals, researchers, and organizations to 
develop new technology that will expand home modification options for 
Veterans and Servicemembers and enhance their ability to live in 
specially adapted homes. Under 38 U.S.C. Sec.  2108, VA can award an 
aggregate amount of $1 million of SAHAT grants per fiscal year, with 
each awardee receiving not more than $200,000 per fiscal year. In the 
first three grant award cycles, VA received 41 applications and 
selected 10 recipients whose innovative work will help expand home 
modification options for Veterans seeking to live more independently. 
Grant recipients range from academic institutions to private-sector 
technology companies. Over $1.3 million in grant funds have been 
awarded under the SAHAT program thus far. Examples of approved projects 
include the building of a fully-adapted model home complete with 
technological advancements that consumers can tour and see in real-life 
what the ``art of the possible'' is, and use that experience to inform 
their individual project decisions. SAHAT grant funds have also 
contributed to the development of enhanced touch-voice-eye activated 
assistive technology. Once SAHAT grant projects are completed, SAH 
agents include information on these technologies and resources in their 
initial conversations with Veterans.
    VA takes a very individualized approach to customer outreach under 
the SAH Program. Due to the complex and individual nature of each 
grant, it is imperative for VA's SAH agents to consistently, 
frequently, and personally communicate with Veterans throughout the 
entire process. Each individual Veteran's disability and housing 
situation is unique, and as such, requires personalized case management 
from SAH agents. While the standard outreach methods, such as letters, 
are used to notify the Veteran of his or her eligibility, the SAH staff 
utilizes personalized communication from that point forward. Initial 
program interviews with Veterans are conducted in-person within 30 
business days of eligibility determination, and personal agent-to-
Veteran contact occurs at least every 30 business days throughout the 
SAH process. A typical SAH case involves numerous communications and 
in-person meetings to best understand and communicate the Veteran's 
unique needs and to help the Veteran navigate the home adaptation 
process through to completion. VA also conducts yearly outreach on 
approximately 4,600 active SAH cases and for roughly 18,000 Veterans 
who might be eligible for, but are not actively pursuing, an SAH grant.
    VA employees across the Nation provide support to the SAH program, 
including SAH agents, who work directly with individual Veterans and 
their families in their homes, and construction and valuation subject 
matter experts who employ their knowledge of construction and home 
modification projects to ensure Veterans' home adaptation projects meet 
their adaptive housing needs and are completed in an effective manner.

Recent Program Trends

    In the past 2 decades, VA has seen a sharp increase in SAH grant 
benefit usage. In the past 10 years, overall grant approval volume has 
nearly doubled (a 194-percent increase), and in each of the last 3 
fiscal years, VA has posted program record grant approval volume (FY 
2015: 1,709; FY 2016: 1,914; FY 2017: 1,926).
    Several legislative enhancements to the SAH program have 
contributed to the increased volume. For example, section 2102 requires 
annual adjustments to monetary caps to help grant amounts keep pace 
with costs of construction. Section 2102 also allows for up to three 
separate grants of assistance, subject to the aggregate limits. 
Congress has also periodically expanded the eligibility criteria for 
certain SAH grants.
    So, too, have VA's efforts contributed to increased volume in SAH 
grant usage. VA has emphasized outreach to the Veteran population, 
Veterans Service Organizations (VSO), and non-profit organizations 
whose missions focus on constructing or adapting homes for severely 
disabled Veterans. VA has also made changes to the SAH grant approval 
process to empower local decision making. Other factors contributing to 
SAH grant volume increases are the sustained period of wartime in the 
United States and an increase in the number of Veterans who survive 
service-connected injuries with severe limb damage or traumatic brain 
injury, or who are diagnosed with devastating service-connected 
conditions. The SAH program has become a very important benefit to 
Veterans in helping to transition to and sustain an environment of 
independent, barrier-free living.

Special Focus Areas

Expedited Grant Processing

    In the past year, VA has implemented several procedural changes to 
the SAH program to de-layer the grant process and empower our local 
staff to make decisions aimed at improving service to Veterans and 
decreasing overall grant timeframes. Key among these are the policies 
implemented to target several major sources of grant delays: Veterans' 
selection of contractors, construction/modification plan approvals, and 
compliance with the program's minimum property requirements (MPR).
    In quarter 2 of FY 2018, VA began providing SAH-eligible Veterans 
with a roster of local contractors who have completed a project in the 
SAH program since FY 2014. VA is careful to inform Veterans that this 
list is for informational purposes only and does not endorse or connote 
official VA relationships with builders/contractors on the list. The 
provision of this list has helped reduce Veteran frustration and time 
spent in identifying local contractors who are familiar with SAH 
program construction and administrative requirements.
    Second, in 2017, VA issued the revised Handbook for Design, which 
is a quick-reference tool for SAH agents and contractors/builders to 
use in developing plans that meet SAH Veterans' unique housing needs. 
By clarifying specific design requirements, the Handbook reduces the 
amount of effort spent on developing a project plan that meets the SAH 
program's unique requirements.
    Additionally, VA added ``recommended adaptations'' in lieu of the 
multitude of MPRs that were previously required on all projects. 
Instead of an opt-out process that required every grant process to 
address every MPR, and for VA to waive those that did not apply or were 
not needed, we now allow an ``opt-in'' approach. In this new process, 
the SAH agent works with the Veteran to determine the adaptations 
relevant to a Veteran's individual situation. Although a small list of 
MPRs are still necessary for every project (e.g., an accessible primary 
bathroom, and a safe and clear ingress and egress from the home), the 
opt-in approach customizes the process for each Veteran and saves time 
in the overall grant process.

Expediting Other VA Benefits

    Further, the SAH program has worked to facilitate faster delivery 
of other associated VA benefits. The SAH program's system of records 
now supports direct access by the Veterans Mortgage Life Insurance 
(VMLI) program staff, so they can query and view case information 
necessary to establish VMLI eligibility. Previously, SAH agents served 
as unnecessary intermediaries between VMLI staff and program data. 
Since VMLI provides up to $200,000 in mortgage life insurance to apply 
toward the balance of certain outstanding housing loans in the event of 
the Veteran's death, expediting VMLI approvals ensures that Veterans 
and their families receive this important and meaningful earned benefit 
in a more timely manner.

Rapidly Progressive Conditions

    Because the SAH event cycle is largely variable and reliant on 
external factors, VA has taken measures to reduce the benefits delivery 
timeframes within its control. Improvements in benefits delivery are 
even more critical when they involve SAH grants for Veterans diagnosed 
with rapidly progressive conditions. Since 2000, VA has closed over 
2,500 cases for Veterans who have these types of circumstances, and 
presently, we have an active SAH caseload of nearly 300 Veterans. Many 
of these Veterans wish to maintain their personal independence and 
network of caregiver and family support by remaining in their own homes 
while confronting their condition.
    VA is proud to serve these Veterans in their time of need by 
enabling such a decision and has made some notable process improvements 
to expedite SAH grant final approvals for these Veterans. In the case 
of these Veterans, SAH agents are trained to evaluate what primary home 
adaptation is most needed in the Veteran's present stage of his or her 
condition, then move forward quickly with that adaptation as the focus 
for the final grant approval. This approach allows the Veteran's case 
to receive grant approval more quickly than the traditional grant 
process, which required that all MPRs be met prior to grant approval. 
As the Veteran's condition progresses and additional adaptations are 
needed or desired, VA assists with supplemental SAH grants (subject to 
aggregate amounts of assistance allowed).

Upcoming Program Enhancements

SAH Business Process Reengineering:

    The SAH program is nearing completion of a business process 
reengineering study. Conducted by gathering input from Veterans, 
private-sector builders and contractors, and a variety of subject 
matter experts within the program, the study is developing fully 
documented ``As-Is'' work processes and a desired ``To-Be'' state for 
administering the SAH program. A business requirements document for an 
information technology (IT) system to support the ``To-Be'' environment 
is also being developed. In addition to work required to initiate 
development of the supporting IT system, the program is reviewing and 
validating the study outputs and determining what processes might be 
implementable prior to the rollout of the new technology.

Transition of Home Modifications for Independent Living

    In implementing Public Law 115-177, enacted June 1, 2018, VA is 
also providing enhancements to Veterans' housing adaptation benefits by 
transitioning the administration of housing adaptation benefits that 
are part of an IILP from the VR&E program to the SAH program. Although 
both programs have worked collaboratively within VA for many years to 
deliver this important benefit, implementation of the law will make it 
easier and more efficient for VA to deliver housing adaptation benefits 
to Veterans.
    A team of subject matter experts have concluded evaluations of 
statutory and regulatory framework considerations and are now focused 
on addressing workforce concerns and developing formal policy and 
procedures, training, and IT system enhancements necessary for smooth 
and efficient transition. Transition efforts are taking special care to 
focus on the Veteran customer perspective and experience. VA expects to 
have these new policies and procedures in place by January 2019. We 
note that in the intervening period, VA is committed to ensuring no 
eligible Veteran will go unserved. VA has and will continue to 
seamlessly provide housing adaptations identified in the IILP, as part 
of VA's VR&E program.

Program Outreach

    The SAH program focuses its current outreach to Veteran customers, 
VSOs, and non-profits that support Veterans, the construction and 
adaptation industry, and the technology sector. SAH capitalizes on 
events and programs sponsored by other VA programs and VSOs to directly 
access our Veteran customers. These outlets provide opportunities for 
the program staff to engage with Veterans on a group or individual 
basis by answering questions about the application process, and often 
assisting eligible Veterans to apply for the SAH grant program on the 
spot.
    SAH staff also attends events sponsored by organizations such as 
the National Association of Home Builders and other housing industry 
trade groups to provide information and education on the different 
aspects of the SAH mission and process and to create opportunities for 
more targeted outreach with industry contractors, manufacturers, and 
suppliers. Further, the SAH program also builds relationships with 
experts in the disability housing adaptation community, an industry 
that is in a constant state of innovation and improvement. These 
relationships ensure that the SAH program remains apprised the latest 
technology.
    While the missions of the SAH program and non-profit organizations 
or VSOs are not always identical, they are often symbiotic, and most 
importantly, both VA and non-profit stakeholders seek to serve our 
Veterans. For these reasons, SAH makes every effort to work closely 
with VSOs and non-profit organizations to ensure that Veterans are 
provided with the highest level of support possible in identifying, 
funding, and implementing home adaptations that support their ability 
to live independently. Some Veterans who do not meet statutory or 
regulatory requirements for SAH grant eligibility, or those whose 
adaptive housing needs exceed SAH grant maximums can be assisted by 
non-profit organizations. Likewise, fostering relationships that have 
open communication and close coordination with non-profit organizations 
and VSOs ensures that Veterans, who may not otherwise know about the 
SAH program, are connected with benefit and program information.
    VA also conducts outreach to Veterans impacted by natural 
disasters. Public Law 112-154 provided a one-time re-use of the SAH 
benefit to help eligible Veterans whose homes have been damaged or 
destroyed as a result of a natural disaster disaster. After a disaster 
occurs, SAH staff at the Regional Loan Centers seeks out SAH grant 
recipients to determine their status and to ascertain whether their 
adapted homes have sustained damage. The general purpose of this effort 
is to determine which Veterans (if any) may require assistance in 
getting their homes repaired or replaced using any SAH grant funds that 
may be available to them. While not all grant recipients whose homes 
sustained damage require VA assistance (damage is often minor in nature 
and covered by insurance), it is very important to ensure these 
disabled Veterans are aware of any grant funds VA may be able to 
provide to help with housing that meets their needs. Recently, after 
Hurricane Harvey, VA SAH staff conducted multiple outreach attempts to 
the 240 SAH grant recipients living in the impacted area.
    VA's SAH program seeks to continuously improve, however, and is 
presently analyzing its existing outreach and stakeholder 
communications strategies to identify opportunities for additional 
collaboration with existing stakeholders, gaps in communication and 
outreach to different program stakeholders, and for new tools or 
avenues to reach Veterans and non-profit stakeholders. VA will use the 
outputs of this analysis to develop its communication and outreach 
plans for SAH activities occurring in FY 2019.

Legislative Matters

    VA looks forward to continued discussions with the Subcommittee on 
how service to our Veterans can be enhanced. Notably, two key SAH-
related provisions are set to expire in 2018. Public Law 115-62 
temporarily expanded VA's authority to provide SAH grants to Veterans 
with injuries to one lower extremity and to administer the SAHAT grant 
program. VA supports the extension of this authority, subject to 
availability of funding.

Conclusion

    Mr. Chairman, we will continue to provide our Nation's Veterans 
with efficient, effective, and meaningful programs centered on meeting 
their adaptive housing needs. Thank you for your continued support of 
our programs and for this opportunity to speak today. This concludes my 
testimony, and I welcome any questions that you or other Members of the 
Subcommittee may have.
     Letter To Chairman Arrington and Ranking Member Beto O'Rourke

The Honorable Jodey Arrington
Chairman
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

    Dear Mr. Chairman:

    Please accept this letter as a clarification for the record of my 
testimony during the hearing entitled ``A Review of VA's Specially 
Adaptive Housing Grant Programs (SAH)'' held on Thursday, September 6, 
2018. Specifically, I would like to clarify my statement that VA does 
not have the statutory authority under the SAH program to assist Mr. 
Kules, or other Servicemembers or Veterans with similar SAH usage, with 
future adaptations to his home.
    During the hearing, Mr. Kules testified that he used the full 
aggregate amount of his SAH grant entitlement of approximately $64,000 
in his first home adaptation. He also stated that when he later 
purchased his second home he was ineligible for any SAH assistance, 
even though he had not exhausted his three lifetime SAH usages and the 
aggregate amount of SAH entitlement had increased since his first 
usage. I confirmed that because Mr. Kules did not have any remaining 
entitlement following his first grant usage, VA was unable to provide 
any assistance for his second home adaptation - e.g., any amount 
previously remaining, plus any increase in the aggregate amount of 
assistance authorized by law since the previous usage.
    Upon further review of the statute and SAH policies, I realized I 
misspoke on this issue. In this regard, the authorizing statute (38 
U.S.C. Sec.  2102) prohibits subsequent usage only if either of the 
following conditions is true:

    1) The Veteran has utilized the SAH grant program three times.
    2) The amount of SAH grant funds previously used by the Veteran is 
equal to the current aggregate amount of SAH assistance allowable by 
law.

    VA notes that prior to October 1, 2009, the aggregate amount of 
assistance available under the SAH program was fixed in statute and 
required congressional action to effectuate an increase. As such, 
Veterans who utilized their full grant amount were generally unable to 
qualify for a subsequent grant as Congress issued only one increase 
between June 15, 2006, (the date Congress authorized three, rather than 
one, lifetime SAH usages) and October 1, 2009 (the date VA began annual 
adjustments to the SAH aggregate entitlement amount in line with the 
Turner Building Cost Index, as authorized by section 2605 of Public Law 
110-280 122 Stat. 254).
    VA's current policy reflects the statute, and VA will qualify a 
Veteran who previously utilized the aggregate amount of assistance, but 
has not reached the three- time usage limit, for a subsequent grant in 
an amount equal to the difference between the previous aggregate amount 
of assistance and the current (new) aggregate amount of assistance. 
Further, VA's Loan Guaranty Service sends out annual contact letters to 
all Veterans who are entitled to SAH and have a current case status of 
``inactive,'' but have not exhausted their lifetime usage limit. The 
purpose of the annual contact letter is to notify Veterans of possible 
additional entitlement to grant funds based on past usage and/or annual 
increases in the aggregate amount of assistance allowable by law.
    VA acknowledges that Mr. Kules' entitlement may be affected because 
of the policy articulated in this letter. Loan Guaranty Service reached 
out to Mr. Kules and the Wounded Warrior Project to clarify the policy 
articulated above. Mr. Kules was notified of his entitlement and his 
SAH Agent is scheduled to meet with him to discuss his remaining 
entitlement.
    I sincerely apologize for the error and hope the Subcommittee finds 
this clarification helpful. A similar letter has been sent to Ranking 
Member O'Rourke. If you have any further questions, please contact 
Elena Joa, Congressional Relations Officer, via phone at (202) 461-
6457, or via email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="94f1f8f1faf5bafefbf5d4e2f5baf3fbe2ba">[email&#160;protected]</a> Thank you for your continued 
support of our mission.

    Jeffrey F. London
    Director
    Loan Guaranty Service

    cc:The Honorable Gus Bilirakis
    The Honorable Bill Flores
    The Honorable Jim Banks
    The Honorable Brian Mast
    The Honorable Mark Takano
    The Honorable J. Luis Correa
    The Honorable Kathleen Rice

                                 <F-dash>
  Prepared Statement of Brigadier General Tom Landwermeyer, USA (Ret)
    Chairman Arrington, Ranking Member O'Rourke and distinguished 
members of the Veterans' Affairs Subcommittee on Economic Opportunity. 
I am grateful that you have granted Homes For Our Troops the 
opportunity to testify before this Subcommittee to review the VA's 
Specially Adapted Housing (SAH) Grant Program.
    Homes For Our Troops (HFOT) is a national nonprofit based in 
Taunton, Massachusetts that builds and donates specially adapted custom 
homes nationwide for severely injured post-9/11 Veterans. Since 2004, 
we have completed 261 homes in 42 states, and we currently have 94 
projects under construction or in the land search process. The homes we 
build are completely accessible to someone in a wheelchair, and as a 
result our Veterans are able to live in an environment that is safe and 
reduces further injury. Our Veterans have all been injured in the 
Afghanistan and Iraq theaters. As a result of living in a specially 
adapted, mortgage free home, our home recipients and their families are 
afforded the opportunity to live safely in a barrier free environment, 
allowing the Veteran, their spouse, and families to pursue personal and 
professional goals that might not be possible otherwise.
    We are familiar with the SAH Grant eligibility requirements, as we 
use the grant as a screening criterion for our program. With the 
exception of blind Veterans, we build homes exclusively for SAH 
qualified Veterans. Since our beginning in 2004, Homes For Our Troops 
has worked closely with the Department of Veterans Affairs to assist 
our severely injured Veterans, and we enjoy a close, productive working 
relationship. In March of this year, our staff met with the VA SAH 
representatives to discuss the challenges and recommendations we will 
highlight in our testimony.
    The Specially Adapted Housing Grant Program enables Veterans to 
regain their independence, enjoy greater economic opportunity, and 
adapt to their new normal. However, we see several challenges with the 
SAH program as it is today.
    First, we agree with our colleagues from the Wounded Warrior 
Project and Paralyzed Veterans of America that a number of Veterans who 
have used their SAH grant to modify their homes will eventually, as a 
result of the aging process or additional medical complications, 
require additional extensive modifications to their home. The ability 
to access the full SAH grant amount a second time, after a set time 
period from the first grant, would enable these Veterans to continue to 
live a normal life.
    A major challenge we see with the SAH Grant program is with the 
eligibility criteria. The post-9/11 generation of Veterans is returning 
home with injuries that are currently not covered by the SAH grant 
criteria despite their need for specially adapted housing features. 
Specifically, Veterans who have non-correctable blindness, and those or 
who have suffered the loss or loss of use of both hands, do not qualify 
for SAH benefits. These Veterans qualify for the SHA Grant, which 
provides significantly less monetary assistance than the SAH grant. As 
you can imagine, total blindness requires numerous technological and 
voice activated adaptations to a home to enable the Veteran to regain 
some of the freedom and independence he or she lost.
    Additionally, whether a Veteran loses his or her arms above or 
below the elbow, they still have lost the most important part, their 
hands. Again, this requires significant adaptations to the home. 
Current guidelines are confusing as to what delineates the difference 
between loss of arms or loss of hands (Exhibits A and B on page 4 of 
this testimony).
    In 2012, Congress expanded eligibility criteria with Public Law 
112-154 Honor America's Veterans Act (Exhibit C on page 5 of this 
testimony). This expansion added the following criteria for SAH 
eligibility:

    The loss, or loss of use of one or more lower extremities due to 
service on or after September 11, 2001, which so affects the functions 
of balance or propulsion as to preclude ambulating without the aid of 
braces, crutches, canes, or a wheelchair

    This expansion is only available to 30 recipients per year with a 
yearly sunset provision. As a result, many Veterans who applied prior 
to this expansion in 2012 and were denied SAH benefits are unaware that 
they are now eligible for the SAH Grant. This has caused significant 
confusion in the Veteran community. We have also encountered situations 
where VA agents were unaware that a Veteran should be qualified under 
the expansion criteria.
    On an administrative note, many VA offices send SAH checks to 
Veterans. This can cause delays in receipt of funds, or the check can 
become lost in the mail or lost once it arrives at the Veteran's home.
    The VA does an outstanding job of administering the Specially 
Adapted Housing program. We have several recommendations we think will 
further enhance the program.

    1) Congress alter language to reinstate the full grant if a 
service-connected disability becomes progressively worse as the veteran 
ages.
    2) Congress expand the SAH criteria to include total blindness.
    3) Congress expand the SAH criteria to include loss or loss of use 
of both hands.
    4) VA take steps to ensure all staff are knowledgeable concerning 
the expansion of the grant criteria. Additionally, the VA can notify 
all Veterans who were denied SAH eligibility prior to the expansion 
that took effect on October 1, 2012, that they may now meet the 
expanded criteria.
    5) VA change how they transfer funds in support of the SAH program, 
shifting to Electronic Funds Transfer to streamline the process and 
eliminate lost checks.

    As the post-9/11 Veteran population returns to the civilian world, 
it is important that the VA and Veterans nonprofits continue to work 
together to assist these brave men and women in receiving the benefits 
they have earned.
    Homes For Our Troops is committed to working with our partners at 
both the VA and other Veterans nonprofits to ensure that our Nation's 
severely injured Veterans are able to regain the freedom and 
independence they have sacrificed in service to our nation. We 
appreciate the opportunity to present to this committee the challenges 
within the current SAH program. By making the changes to the SAH 
program we have highlighted here, we can ensure that our Veterans 
receive the opportunity to live in a safe environment that will allow 
them to continue to contribute to their families, community, and their 
country.

    Thank you,

    H. T. Landwermeyer, Jr.
    Brigadier General, USA Retired
    President and CEO
    Homes For Our Troops

                             Exhibits A,B,C
Exhibit A

                  Specially Adapted Housing (SAH) Grant
------------------------------------------------------------------------
                                                        Number of Grants
   Eligibility      Living Situation      Ownership        You Can Use
------------------------------------------------------------------------
 
 <bullet> Loss of
or loss of use of
  both legs, OR
------------------------------------------------------------------------
 
 <bullet> Loss of
or loss of use of
  both arms, OR
------------------------------------------------------------------------
 
<bullet> Blindnes
  s in both eyes
having only light
 perception, plus
 loss of or loss
  of use of one
     leg, OR
------------------------------------------------------------------------
 
<bullet> The loss
of or loss of use
 of one lower leg
  together with
   residuals of
 organic disease
  or injury, OR
------------------------------------------------------------------------
 
<bullet> The loss
of or loss of use
    of one leg
together with the
 loss of or loss
  of use of one
     arm, OR
 
 <bullet> Certain       Permanent     Home is owned by   Maximum of 3
   severe burns                         an eligible     grants, up to
                                         individual       the maximum
                                                        dollar amount
                                                            allowable
------------------------------------------------------------------------

Exhibit B

                 Special Housing Adaptation (SHA) Grant
------------------------------------------------------------------------
                                                        Number of Grants
   Eligibility      Living Situation      Ownership        You Can Use
------------------------------------------------------------------------
 
<bullet> Blindnes
  s in both eyes
   with 20/200
 visual acuity or
     less, OR
------------------------------------------------------------------------
 
 <bullet> Loss of
or loss of use of
  both hands, OR
------------------------------------------------------------------------
 
 <bullet> Certain
   severe burn
   injuries, OR
------------------------------------------------------------------------
 
 <bullet> Certain       Permanent     Home is owned by   Maximum of 3
      severe                            an eligible     grants, up to
   respiratory                        individual or       the maximum
     injuries                         family member     dollar amount
                                                            allowable
------------------------------------------------------------------------

Exhibit C

Specially Adapted Housing (SAH) Grant (Expansion under PL 112-154 Honor 
    America's Veterans Act)

    The loss, or loss of use of one or more lower extremities due to 
service on or after September 11, 2001, which so affects the functions 
of balance or propulsion as to preclude ambulating without the aid of 
braces, crutches, canes, or a wheelchair *
    * This eligibility criteria is limited to 30 recipients per fiscal 
year (FY). The cap for FY 2018 was reached in November 2017. 
Servicemembers or Veterans that have the qualifying disabilities to be 
rated eligible, but did not receive one of the 30 grants due to the cap 
being reached, may be able to utilize this benefit in FY 2019 or future 
years if the authority is continued by law, and provided the new FY cap 
is not also surpassed.

                                 <F-dash>
                   Prepared Statement of Steven Henry
    Chairman Arrington, Ranking Member O'Rourke, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to offer our views on the Department of 
Veterans Affairs' (VA's) Specially Adaptive Housing Grant Programs.
    The Specially Adaptive Housing Grant Programs help veterans with 
certain service-connected disabilities to live independently in a 
barrier-free environment by providing critical housing adaptations. 
Many PVA members have benefited greatly from the Specially Adapted 
Housing (SAH) grant program. The accessibility provided through this 
program greatly increases the quality of life for these veterans. PVA 
also represents a large number of veterans who have been diagnosed with 
Amyotrophic Lateral Sclerosis (ALS). For these veterans, time is of the 
essence in providing the dignity of accessible housing.
    In any construction project, whether it's a Federal project or one 
carried out by a private homeowner, there are checks, balances, and 
procedures that must be followed due to legal constraints. Projects 
completed under the SAH program are no different. Under VA's manual, 
M26-12, the following steps occur during the grant process.

    <bullet>  SAH Application / Eligibility
    <bullet>  Pre-grant Approval: Initial Interview
    <bullet>  Pre-grant Approval: Feasibility and Suitability
    <bullet>  Getting to Conditional Approval
    <bullet>  Getting to Final Approval
    <bullet>  SAH Agent's Responsibility During Construction and 
Handling Disputes/ Complaints
    <bullet>  Compliance Inspection and Review of Compliance Inspection 
Reports
    <bullet>  Escrow
    <bullet>  Supplemental Grants

    PVA employs a highly-trained force of over 70 National Service 
Officers (NSOs) across the nation who develop benefits claims for both 
member and non-member clients. After recently surveying our NSOs, we 
heard time and again that SAH is a great program and the SAH agents are 
dedicated employees who work tirelessly in assisting veterans with 
completing the grant process. Even with the dedication of the SAH 
agents, however, veterans are still encountering difficulties. In our 
survey, we found three consistent concerns with the SAH program: 
finding a contractor, timeliness of the modifications, and 
inconsistency among SAH regional offices.
    PVA's first concern with the SAH program is a veteran's inability 
to locate a responsible and experienced contractor to complete SAH 
modifications. One of the complicating factors with the SAH program is 
that a veteran must submit three bids to VA as part of the SAH process. 
Normally, this would not be terribly difficult for a homeowner who is 
completing a typical project; however, there are very few contractors 
who actually have experience with making home modifications for 
disability access. If a veteran resides in a rural area, it's even more 
difficult to find an appropriate contractor.
    With government bureaucracy comes a lot of red tape, which in the 
case of SAH is a lot of paperwork and procedures. VA will often ask 
repeatedly for the same paperwork making the process very redundant. 
Consequently, many contractors are not willing to work with VA. 
Furthermore, VA is known to take a long time to pay SAH contractors, so 
they must complete the work before being compensated. This results in 
contractors having to carry construction costs on their own. Normally, 
contractors have a payment schedule so they are not forced to do this. 
To improve the relationship between contractors and VA, we recommend 
that VA work more closely with building associations to educate their 
members about SAH. Such relationships would not only ensure that 
contractors have more knowledge about the required paperwork but they 
could also lead to improved processes as VA learns more from 
contractors about how to facilitate their participation.
    PVA's second concern is the timeliness of modifications. After 
surveying our NSOs, we have found that many veterans are waiting an 
average of 6-8 months (up to two years in some cases) to have the 
modifications completed. The ability to safely live independently is 
priceless and any processes that foster delays must be addressed.
    For example, the average person diagnosed with ALS lives an average 
of two to five years after diagnosis. Many veterans represented by PVA 
rarely live past one year after diagnosis; therefore, timely completion 
of SAH modifications is imperative. There have been instances where 
veterans have passed away before the modifications have been completed.
    Recently, PVA met with VA executive leadership to discuss the SAH 
program and to voice our concerns. We raised our concern with 
timeliness and how long veterans have to wait to receive SAH 
modifications. Although VA will not prioritize the cases of veterans 
will terminal illnesses, their cases are expedited. An example of a 
case being expedited is instead of completing all the necessary work at 
one time, only the most important modifications will be completed. 
Then, as more work becomes necessary, it will be completed using 
supplemental grants.
    Despite the ability for cases to be expedited, PVA still finds 
timeliness to be an issue. For veterans who have been diagnosed with 
ALS, after eight months, their condition can be so advanced that their 
abilities are severely restricted. PVA is concerned about these 
veterans' quality of life. It is unacceptable for them to wait months, 
only to die before receiving the needed modifications.
    The very nature of ALS presents different circumstances than those 
present for many other SAH eligible veterans. For veterans who have 
been diagnosed with ALS, their health declines so quickly it's 
imperative they receive modifications as soon as possible to increase 
what life they have left. PVA believes that the cases of veterans with 
terminal illnesses, like ALS, should be prioritized. If VA is unwilling 
to do so, then Congress must pass legislation directing it.
    Lastly, PVA is concerned about consistency in the administration of 
the SAH program across the nation. PVA found a general consensus from 
our NSOs about concerns with the SAH program; however, some NSOs also 
raised concerns about the quality and speed of the work which seemed to 
depend entirely on the geographic location of the veteran. This is 
troubling based on the fact that compared to other programs, SAH is 
very small. It should not be as difficult for VA to maintain a standard 
across the board. Veterans should not be punished for where they choose 
to reside. Instead, they should be able to receive quality service 
regardless of the location of their residence.
    In some locations, SAH agents are tasked with additional duties, 
including having to complete home appraisals for VA home loans and for 
veterans who are going through the process to refinance their VA 
mortgage. Those same agents are also required to answer phone calls 
from VA's general hotline number that have nothing to do with the SAH 
program. PVA understands all positions carry the need to perform 
additional duties; however, to require SAH agents to complete tasks 
unrelated to SAH is unacceptable. We have also discovered that at least 
one SAH office communicated to its agents that cases of terminal 
veterans were not to be expedited, that ``all veterans were to be 
treated the same.''
    In light of our various concerns, we will begin meeting with the 
national SAH program leaders on a monthly basis to increase feedback on 
the program. We are very pleased to have this type of open 
communication with VA. We hope that through heightened communication 
with program leaders and the oversight of this Subcommittee that the 
program's administration will improve and result in better experiences 
with this program for PVA members.
    Aside from changes VA could make to improve the administration of 
SAH, we also believe that Congress must act to improve access to needed 
housing adaptations. In its recommendations to the 115th Congress, the 
co-authors of The Independent Budget (IB), Disabled American Veterans, 
PVA, and the Veterans of Foreign Wars, recommended that Congress 
establish a supplementary housing grant that would cover the cost of 
new home adaptations for eligible veterans who have already used their 
initial grants. Without the ability to access such a grant, veterans 
may be forced to choose between surrendering their independence by 
moving into an inaccessible home or staying in their current home 
simply because they are unable to afford the cost of modifying a new 
home.
    Alternatively, we would support Congress providing increased 
funding for the grant to better meet the needs of veterans throughout 
their lives. Although PVA appreciates previous changes that resulted in 
the grant being increased based on the Commercial Construction Index 
(CCI), the current benefit of $81,080 for SAH is not enough to cover 
the costs associated with making the necessary modifications to a home. 
Veterans with catastrophic disabilities related to their military 
service have the right to live as independently as possible for as long 
as they are able. The SAH program must support that independence.
    PVA would like to thank you for the opportunity to offer our views 
on VA's Specially Adaptive Housing Grant Programs. We look forward to 
any follow up questions you may have.

                                 <F-dash>
                    Prepared Statement of Ryan Kules
    Chairmen Arrington, Ranking Member O'Rourke and distinguished 
members of the Subcommittee on Economic Opportunity - thank you for 
inviting Wounded Warrior Project (WWP) to submit the following 
testimony on our review and recommendations for improvements regarding 
the Department of Veterans Affairs' Specially Adaptive Housing Grant 
Program (SAH).
    Since our inception in 2003, we have grown from a small 
organization delivering comfort items in backpacks at the bedside of 
wounded warriors here in our nation's capital to an organization of 
nearly 600 employees in more than 25 locations around the world 
delivering over a dozen direct-service programs to warriors and 
families in need. Through our direct-service programs, we connect these 
individuals with one another and their communities; we serve them by 
providing mental health support and clinical treatment, physical health 
and wellness programs, job placement services, and benefits claims 
help; and we empower them to succeed and live life on their own terms. 
We communicate with this community on a weekly basis and are constantly 
striving to be as effective and efficient as possible.
    Over 119,000 service members, veterans, and their family support 
members are currently registered with Wounded Warrior Project, and the 
need is great and growing. Thus far in Fiscal Year 2018, we are 
averaging more than 1,200 new registrations per month. As these needs 
grow, however, so has the foundation of support for our mission. More 
than 6.5 million donors and 3.5 million social media followers are 
invested in the work we are doing and helping us care and advocate for 
post-9/11 wounded warriors.
    As leading advocates for service members, veterans, and their 
families, WWP strives to fill any gaps in care that VA offers. One 
program where we have seen issues arise is the VA Specially Adaptive 
Housing Grant Program. VA's Specially Adaptive Housing Grants provide 
allowances to service members and veterans with certain permanent and 
total service-connected disabilities. These grants help with the 
purchase or construction of an adaptive home or modifications of an 
existing home to help accommodate a disability. Eligible grantees 
include those who have lost the use of both arms and/or both legs, 
those who are blind in both eyes, and those who have certain severe 
respiratory injuries, or certain severe burns. The total amount of 
funds that an individual can use is currently $81,080. A veteran or 
service member can access these funds up to three times and cannot 
exceed the capped amount.
    Through our Independence Program (IP) and our Veterans Disability 
Benefits Services Team, WWP assists veterans and service members in 
need of home modifications for daily living if they do not qualify for 
VA SAH grants. This program is a long-term support program available to 
warriors living with moderate to severe traumatic brain injuries, 
spinal cord injuries, or other neurological conditions that impact 
independence. Assistance specific to home adaptations includes, but is 
not limited to, building ramps, increasing the size of hallways, and 
adding handlebars throughout the home. Additionally, WWP has 
partnerships with specialized neurological case management teams at 
Neuro Community Care and Neuro Rehab Management that provide 
individualized services. These teams focus on increasing access to 
community services, empowering warriors to achieve goals of living a 
more independent life and continuing rehabilitation through alternative 
therapies. In 2018, the Independence Program will deliver more than 
200,000 hours of care to the nearly 700 enrolled warriors. If the VA 
SAH grant falls short in assisting a veteran or service member, WWP's 
Independence Program is there to help. The goal of any veteran service 
organization is to augment VA, not fill gaps where there are 
shortfalls.
    Not only is WWP assisting veterans with special housing needs 
through our Independence Program but WWP has a team of VA disability 
benefit counselors helping warriors apply for VA SAH grants. To better 
understand the areas that are lacking in VA's SAH grant process, our 
national benefit assistance office polled WWP disability benefit 
counselors across the country. Using the information gathered from our 
poll, we were able to identify a host of issues regarding the SAH grant 
program. Some of these responses are listed at the end of this 
testimony. These issues range from the number of grants authorized each 
year to the difficulty in finding builders to work with the VA and its 
bidding process.

Overview of the SAH Grant Process:

    The Veterans Benefits Administration (VBA) employees around 700 
employees in regional offices across the country. These employees are 
responsible for executing the policy guidance received by the VA 
Central Office (VACO). These employees fall under the Construction and 
Valuation (C&V)/SAH Division. Their primary function is to provide 
assistance and administration for the VA Home Loan Program to include 
real estate appraisals, providing oversight of the Appraisal Processing 
Program (LAPP), and administration of the SAH program. C&V staff 
includes VA Staff Appraisers, Valuation Officers, Loan Specialists, and 
SAH Agents.
    SAH Agents deliver the SAH grant benefit to veterans by meeting 
with veterans at their desired future place of residence. They assist 
by providing an overview of the grant, oversight of the building 
process, and processing of paperwork. SAH staff members will have 
access to the residence during its construction/renovation and will 
provide hands-on guidance and suggestions for home modifications to 
improve mobility and promote independence. The SAH Agent will provide 
project management during active construction projects and serve as the 
liaison between the veteran and building contractor. They will complete 
the project by conducting one final field review to assess the home and 
its adaptations.
    Below are the top issues that were raised by our disability 
benefits team, veterans, and contractors that WWP interviewed.

Grant caps for injuries that become progressively worse:

    Currently, VA authorizes SAH grants to an eligible veteran up to 
three times not to exceed the capped authorized amount of $81,080. WWP 
understands that Congress needs to cap benefit amounts for budgetary 
reasons; however, this can lead to troubling lapses in care for 
severely wounded warriors. There are instances where severely wounded 
veterans who used the SAH grant to modify a home were left without 
assistance after their disability became worse. Additionally, it is not 
uncommon for veterans to spend their own funds to modify a home due to 
a variety of reasons. These costs can easily amount to over $50,000 for 
a severely wounded veteran. Veterans who have maxed out the grant but 
need additional home changes because their injury deteriorates over 
time are not eligible for the SAH grant if they have already reached 
the cap. As an example, a bilateral amputee who walks using prosthetics 
and used SAH grants to adapt two homes at different periods of their 
life now requires a wheelchair to move. Because the veteran only used 
the grant twice, he could use it one more time; however, because he 
already used the total amount of funds authorized, he would be forced 
to pay out of pocket for the wheelchair adaptation.
    As highlighted in our oral testimony, a colleague of ours, Ryan 
Kules was faced with a very similar issue. He bought a home in Maryland 
and used the SAH grant to modify the house to meet his needs. As a 
double amputee who lost his right arm and left leg in Iraq he had some 
unique requirements to modify this home for daily living. While the 
initial grant did help in addressing these needs, he was required to 
spend his own money to cover all the costs. In 2015, he decided to move 
to a more family friendly neighborhood. He sold the home that was 
purchased in 2009 but unfortunately, he could not recuperate the money 
spent on the adaptive changes. Although he did earn money in the sale 
due to earned equity, he learned that adaptive disability changes do 
not typically increase the value of the home. His needs were not 
different when purchasing his next home and unfortunately was required 
to spend the equity earned from the sale of his first house on making 
adaptive changes to his second home. He spent in excess of $90,000, 
making the necessary changes to his second home. Currently, he can walk 
with the use of a prosthetic leg but uses a wheelchair at home. If his 
disability were to become worse, he would need to pay for a ramp and 
other wheelchair alteration to his current home. Because of this, he is 
limited in where and when he can move due to his disability. If his 
family were to grow, he would be faced with finding a new home to 
accommodate the need for more bedrooms. If he wanted to retire in a 
different city, he would need to spend money adapting the new home. Mr. 
Kules will need to adapt any home that he purchases and because of the 
extent of his injuries, costs in purchasing a new home will be 
extensive.
    Wounded Warrior Project recommends that Congress alter language to 
reinstate the grant if a service-connected disability deteriorates as 
the veteran ages. It is not uncommon for a young veteran to use the 
grant on their first home. As the wounds of service become worse, 
veterans and service members should not be expected to pay out of 
pocket for future home adaptations. We suggest the full benefit be 
reinstated to those in the program every ten years to accommodate 
moving and normal life changes. It is not reasonable to expect a 
veteran to buy a home and never leave over their entire life. This 
benefit is reserved for those catastrophically injured. These injuries 
will not go away over time. Therefore, this should be a lifetime 
benefit, not a one-time benefit.

Confusing Language Regarding Eligibility on the VA Website:

    Understanding the online qualifications for VA's SAH grants and 
other home adaptation programs are difficult to understand on VA's 
website. Additionally, the classification of ``severe burns'' and other 
vague language as an eligibility criterion for admission into the grant 
program is not clearly defined. For individuals not accustomed to VA 
qualification language and disability definitions, eligibility into the 
SAH program can be daunting and difficult to navigate.
    The excessive use of qualifying language such as ``or,'' in 
conjunction with vague language such as ``certain severe burns'' could 
convince eligible veterans that they are not authorized to use the SAH 
grant program. The website that hosts information regarding the VA 
Caregiver Program has a tool that allows veterans and family members to 
answer specific questions through an online questionnaire to determine 
possible eligibility \1\. WWP recommends that VA develop a similar tool 
to help determine eligibility for SAH grants.
---------------------------------------------------------------------------
    \1\ https://www.va.gov/healthbenefits/resources/caregiver--
eligibility--check.asp
[GRAPHIC] [TIFF OMITTED] T5830.001

    There is also confusion regarding eligibility requirements 
published in the Code of Federal Regulations, the VA's M26-12 Specially 
Adapted housing Grant Processing Procedures manual \2\, and Public Law 
112-154 \3\. Currently, the SAH program is separated into two different 
groups. The permanent program has one set of disability requirements 
and the second ``extended program'' has a separate set of requirements. 
Additionally, the extended program must be reauthorized each year by 
Congress and only 30 grants are authorized in a given fiscal year. This 
nonconformity causes much confusion to those unfamiliar with the SAH 
program or VA benefits.
---------------------------------------------------------------------------
    \2\ https://www.benefits.va.gov/WARMS/M26--12.asp
    \3\ https://www.gpo.gov/fdsys/pkg/PLAW-112publ154/html/PLAW-
112publ154.htm
---------------------------------------------------------------------------
    Wounded Warrior Project recommends that VA clearly define on its 
website what ``certain severe burns'' and other vague language or 
indicate where a veteran, service member, or advocate may locate these 
definitions. WWP also recommends VA update the online website to 
clearly include the expansion programs disability requirement and 
clearly explain the differences between both sets of requirements. 
Lastly, WWP recommends the Federal Regulation, VA Procedures Manual, 
and Public Law be reviewed and updated.

Limiting usage of the SAH Program to three times:

    Service members and veterans are authorized to use the grant 
program a total of three times. Additionally, there is a cap on this 
benefit of $81,080. As disabilities worsen and families move, it is 
possible that a veteran will need to use this program more than a total 
of three times. If a veteran is injured when they are 20 years old and 
use the SAH grant to build their first home, it is unreasonable to 
assume that this veteran will not move more than three times before the 
end of their life. According to a 2016 census study, homeowners will 
move on average of five times in their life. Renters will move on 
average of 23 times in their life \4\. Additionally, many former 
service members end up working for the Federal government. These 
positions can require multiple changes of duty station over their civil 
service career. WWP recommends removing the condition that a service 
member or veteran may only use the benefit three times. Given that 
there is a monetary cap to the benefit, we see the additional criteria 
of limiting the number of times an individual can use the grant as 
arbitrary and unnecessary.
---------------------------------------------------------------------------
    \4\ https://www.census.gov/newsroom/blogs/random-samplings/2017/01/
mover-rate.html

---------------------------------------------------------------------------
Contractors dealing with VA red tape:

    After talking with multiple contractors who built homes for 
disabled veterans that utilized the VA SAH grant, numerous issues were 
highlighted that need to be addressed by VA. The most frustrating 
aspect of the grant process between the contractor and veteran seems to 
be the Pre-Grant Approval process. For a veteran to be approved for a 
``pre-grant,'' they must have a proposed house plan to show the VA. To 
get a housing plan drawn up by a contractor requires the veteran to 
obtain monetary backing from a financial institution. To gain this 
financial backing, the contractor must provide the veteran with a price 
quote for the construction of the home. These quotes are set for a 
given amount of time and are tied into the construction loan through 
the financial institution. These price quotes do not last an indefinite 
amount of time due to the cost of lumber and other building supplies.
    Once the veteran has obtained financing and building plans, the 
must go to the VA for the Pre-Grant Approval Process. During this Pre-
Grant Approval Process, the lot/housing unit inspection must be 
completed within 30-business days of the initial interview. After 
which, the financial and medical feasibility determinations must be 
made within 20-business days from the date of the lot/housing unit 
inspection. Once that is complete, the results of the study must be 
communicated to the veteran within 10-business days of finalizing the 
review. This entire process can take as long as two months before the 
veteran learns if the grant is approved or denied.
    Contractors that we spoke with explained that many times the price 
quote becomes void before the VA can complete this process. This 
requires the veteran to return to the builder, obtain a new price 
quote, go back to the financial institution and update the home loan, 
and then resend the documents to the VA. This creates much 
consternation between the veteran and the contractor. Wounded Warrior 
Project recommends that VA becomes more conversant and an expert in the 
building process and adapt its approval timeline to match industry 
standard. It is important to note that this is only for the Pre-Grant 
Approval process. The veteran and contractor must also submit 
additional paperwork to reach the ``conditional approval status'' which 
can take even longer as the VA Central Office is the only grantor of 
this status. This conditional approval is ``property specific'' so if 
the VA takes too long, and the lot is sold, or the contractor backs out 
due to excessive VA red tape, the veteran must start over again.
    Another complaint address by builders is when the VA releases 
payment of funds to the contractor. Most contractors will draw from the 
finical institution's loan fund each month to cover the future months 
building costs. This is done industry-wide. With the VA SAH grant, the 
builder is required to carry the initial construction costs until after 
the final home review. Only then will the VA release the SAH grant to 
the veteran/contractor. With the additional VA paperwork, a government 
non-contractor project manager as additional oversight, and the added 
finical burden of covering the financial costs for the veteran before 
being reimbursed by the VA, there are little incentives for a 
contractor to accept a SAH grant. In fact, of all the contractors we 
talked with, none stated they would accept another SAH grant applicant. 
This is a concern for Wounded Warrior Project. Veterans who reside in 
rural areas will have fewer options in obtaining a contractor bid. WWP 
recommends VA review its application and oversight process to 
incentives builders to work with veterans and be careful not drive them 
away. One possible solution is for the VA to build out a ``pre-
selected/pre-approved'' national builder list of contractors that have 
already been vetted by the VA. VA currently pre-vets schools for 
veterans using the Post-9/11 GI Bill and Vocational Rehabilitation 
programs.

The limitation of 30 grants each Fiscal Year:

    Currently, VA authorizes 30 ``expanded'' SAH grants each year. This 
expansion allows SAH grants for individuals that are blind, those who 
have lost the use of both hands, and those with other qualifying 
disabilities as defined by VA \5\. If VA receives more than 30 grants 
in a given fiscal year (FY) these applicants must reapply during the 
next year's cycle. According to VA, ``[t]he cap for FY 2018 was reached 
in November 2017. Servicemembers or Veterans that have the qualifying 
disabilities to be rated eligible, but did not receive one of the 30 
grants due to the cap being reached, may be able to utilize this 
benefit in FY 2019 or future years if the authority is continued by 
law, and provided the new FY cap is not also surpassed \6\.'' With a 
maximum of 30 grants each fiscal year, and assuming that each grant is 
maxed out at $81,080, the total amount of funds that would be spent on 
this expanded program any given FY would be $2,432,400 nationwide. It 
is obvious that the need is much larger than the program can authorize 
given that in FY 2018, VA reached its authorized 30 grants in November 
of 2017. That meant the total grants allotted were reached in the 
second month of the fiscal year. This is very problematic and must be 
addressed.
---------------------------------------------------------------------------
    \5\ https://www.gpo.gov/fdsys/pkg/PLAW-112publ154/html/PLAW-
112publ154.htm
    \6\ https://www.benefits.va.gov/homeloans/adaptedhousing.asp
---------------------------------------------------------------------------
    The SAH grant is not costly in comparison to other veteran benefit 
programs. It is also a benefit that is critical for those with the most 
severe injuries in that it gives some semblance of normality to these 
veterans. By turning away veterans who are in need of the SAH benefit 
only because of an arbitrary cap is dishonoring the sacrifices these 
veterans made in service to this country. WWP recommends removing the 
30 limit and assisting all service members and veteran who need to 
adapt their homes due to service connect severe injuries. Additionally, 
this extended SAH benefit must be reauthorized each year. We recommend 
the extended program become permanent to ensure stability in this 
critical veteran benefit.
    The VA Specially Adaptive Housing Grant assists the most critically 
ill, injured, and Wounded Warriors find solitude in their homes as they 
transition from service into the civilian world. Although it has great 
intentions, Wounded Warrior Project believes the VA is correctly 
implementing the intent of the SAH program. Complaints regarding 
excessive wait times, overburdensome red tape, and vague language 
continually pushing veterans and contractors away from its utilization 
\7\. There is a need for oversight as contractors have been known to 
take advantage of veterans. However, the current process is pushing 
good contractors away which can be just as harmful to the veteran. We 
hope that with this testimony, we can bring light to some of the issues 
veterans and contractors face when dealing with VA SAH grants. If we 
were to make one recommendation, we would ask that Congress reauthorize 
the benefit for veterans who have disabilities that become worse every 
ten years. Many of the issues in this testimony can be addressed by VA 
internally, however, Congressional approval is needed to expand the 
benefit.
---------------------------------------------------------------------------
    \7\ http://www.unionleader.com/veterans/Disabled-vet-has-VA-cash-
but-no-contractor-for-accessibility-addition-01052017
---------------------------------------------------------------------------
    Wounded Warrior Project thanks the Subcommittee on Economic 
Opportunity, its distinguished members, and all who have contributed to 
the policy discussions surrounding VA's SAH benefit under review at 
today's hearing. We share a sacred obligation to serve our nation's 
veterans, and WWP appreciates the Subcommittee's effort to identify and 
address the issues that challenge our ability to carry out that 
obligation as effectively as possible. We are thankful for the 
invitation to testify and stand ready to assist when needed on these 
issues and any others that may arise. If you have any additional 
questions, please feel free to reach out to our Government Relations in 
D.C.

Supplementary Questions for VA:

    In addition to the issues addressed above, Wounded Warrior Project 
has compiled a list of questions and comments brought up by our 
benefits counselors and interviews with veterans and contractors. 
Wounded Warrior Project recommends these questions be reviewed and 
answered by the VA or any other appropriate party.

    1. Would it be more cost-effective to have SAH Agents in all VA 
regional offices and not just in the Hawaii regional office and 9 VA 
Regional Loan Centers?

    2. Why are SAH Agents responsible for the medical and financial 
feasibility assessments and what is the criteria for hiring SAH Agents?

    3. Why are veterans and builders expected to do so much work up 
front to obtain conditional approval for which both parties incur 
expenses when the VA will not provide guaranty or warranty of any 
structural changes to the building and stays out of any litigation 
should it arise?

    4. It is not fair that if the grant process is terminated after a 
veteran meets the criteria for conditional approval, but the amount is 
never paid, it will count as one of the three grants uses under 38 
C.F.R. Sec. 36.4403. Why is the VA policy written as such?

    5. What happens to homes built using SAH/SHA grants that are 
damaged by natural disasters? Apart from FEMA-based flood insurance 
requirements, and access to Veterans Mortgage Life Insurance, there 
seem to be no protections in place for adapted homes that have been 
affected by damage from natural disasters.

    6. According to the VA FY 2019 / FY 2017 Annual Performance Plan 
and Report (APP&R) Loan Guaranty section for Specially Adapted Housing 
grantees who believe adaptation obtained under the program has helped 
them live more independently (VBA #653), during FY 2017, the Specially 
Adapted Housing Survey was not administered, nor will it be 
administered in FY 2018. As such, and in consideration that this metric 
has been removed for external reporting purposes, no baseline is 
available for FY 2018, nor will any survey results be reported. 
Therefore, how can VA accurately determine the success of the program 
without any measurable metrics?

    7. How often do veterans have to pay out-of-pocket to have the 
adaptations completed?

    8. Why does the VA provide no recourse or support for veterans 
whose homes experience construction issues after all funds have been 
disbursed, and why are builders who are found to have performed sub-par 
work after-the-fact not sanctioned by the VA?

    9. What is the claim processing time frame from application 
submission to the construction of the home? It is impossible to 
determine based on review of the M26-12; however, there are at least 
four months of obtaining various approvals before a bid is even 
considered, and longer before a contract is obtained. Does this long 
and complicated process, for which the VA wants total involvement 
unless something wrong happens, contradict the intent of the 
legislation?

    10. Do all the requirements that come as part of the grant 
application procedure discourage veterans in need from obtaining 
benefits they are entitled to by law?

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
